<html>
<title> - THE SCOURGE OF RUSSIAN DISINFORMATION</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 
                             THE SCOURGE OF


                         RUSSIAN DISINFORMATION

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 14, 2017

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 115-1-5]
                             
                             
                             
                             
                             
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                     
  
                             


                       Available via www.csce.gov
                       
                       
                       
                            _________ 
 
                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 26-880 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                            
                       
                       
                       
                       
                       
                       


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,       ROGER F. WICKER, Mississippi,
Co-Chairman                             Chairman
ALCEE L. HASTINGS, Florida              BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama             JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas               CORY GARDNER, Colorado
STEVE COHEN, Tennessee                  MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina          JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois                THOM TILLIS, North Carolina
SHIELA JACKSON LEE, Texas               TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                   SHELDON WHITEHOUSE, Rhode Island

                              
                   

                     EXECUTIVE BRANCH COMMISSIONERS

                      Vacant, Department of State
                     Vacant, Department of Commerce
                     Vacant, Department of Defense

                                  [ii]
                                  
                                  


                             THE SCOURGE OF
                         RUSSIAN DISINFORMATION

                              ----------                               
SEPTEMBER 14, 2017

                             COMMISSIONERS

                                                                   Page
Hon. Cory Gardner, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Benjamin L. Cardin, Ranking Member, Commission on Security 
  and Cooperation in Europe......................................     3
Hon. Christopher Smith, Co-Chairman, Commission on Security and 
  Cooperation in Europe..........................................     4
Hon. Gwen Moore, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    17
Hon. Jeanne Shaheen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    20
Hon. Sheldon Whitehouse, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    24

                               WITNESSES

John F. Lansing, Chief Executive Officer and Director, 
  Broadcasting Board of Governors (BBG)..........................     6
Molly K. McKew, CEO, Fianna Strategies...........................     8
Melissa Hooper, Director of Human Rights and Civil Society 
  Programs, Human Rights First...................................    11

                               APPENDICES

Prepared statement of Hon. Cory Gardner..........................    41
Prepared statement of Hon. Christopher Smith.....................    43
Prepared statement of Hon. Benjamin L. Cardin....................    44
Prepared statement of Hon. Michael Burgess.......................    45
Prepared statement of John F. Lansing............................    47
Prepared statement of Molly K. McKew.............................    52
Prepared statement of Melissa Hooper.............................    65

                                 [iii]


                             THE SCOURGE OF



                         RUSSIAN DISINFORMATION

                              ----------                              


                           September 14, 2017

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 9:34 a.m. in Room 562, Dirksen 
Senate Office Building, Washington, DC, Hon. Cory Gardner, 
Commissioner, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present:  Hon. Cory Gardner, Commissioner, 
Commission on Security and Cooperation in Europe; Hon. 
Christopher Smith, Co-Chairman, Commission on Security and 
Cooperation in Europe; Hon. Benjamin L. Cardin, Ranking Member, 
Commission on Security and Cooperation in Europe; Hon. Gwen 
Moore, Commissioner, Commission on Security and Cooperation in 
Europe; Hon. Jeanne Shaheen, Commissioner, Commission on 
Security and Cooperation in Europe; and Hon. Sheldon 
Whitehouse, Commissioner, Commission on Security and 
Cooperation in Europe.
    Witnesses present:  John F. Lansing, Chief Executive 
Officer and Director, Broadcasting Board of Governors (BBG); 
Molly K. McKew, CEO, Fianna Strategies; and Melissa Hooper, 
Director of Human Rights and Civil Society Programs, Human 
Rights First.

  HON. CORY GARDNER, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Gardner. This hearing of the Helsinki Commission will 
come to order. Welcome, and good morning everyone. I'm honored 
to speak and be here on behalf of Senator Wicker, the 
Commission's Chairman, and to preside over this morning's 
hearing.
    The Commission is mandated to monitor the compliance of 
participating states with consensus-based commitments of the 
OSCE. Today's hearing focuses on the pressing issue of Russian 
disinformation, and how it undermines the security and human 
rights of people in the OSCE region.
    Disinformation is an essential part of Russia's hybrid 
warfare against the United States and the liberal world order. 
As one of our distinguished panel witnesses today wrote in her 
recent article, ``The Russian security state defines America as 
the primary adversary. The Russians know they cannot compete 
head to head with us economically, militarily, technologically, 
so they create new battlefields. They are not aiming to become 
stronger than us, but to weaken us until we are equivalent.''
    Through its active-measures campaign that includes 
aggressive interference in Western elections, Russia aims to 
sow fear, discord, and paralysis that undermines democratic 
institutions and weakens critical Western alliances such as 
NATO and the EU.
    Russia's ultimate goal is to replace the Western-led world 
order of laws and institutions with an authoritarian-led order 
that recognizes only masters and vassals. Our feeble response 
to Russian aggression in Ukraine and their interference in our 
elections has emboldened the Kremlin to think that such a new 
world order is not only possible, but imminent.
    We must not let Russian activities go with impunity. We 
must identify and combat them utilizing every tool at our 
disposal.
    I am proud that my home state of Colorado is home to Fort 
Carson and the 10th Special Forces Group, an elite unit that 
has been at the tip of the spear in identifying and combating 
some of these malign Russian activities in the European 
frontline states. I thank them for their important work and for 
keeping our nation safe.
    To help us lead our discussion today, I am pleased to 
introduce three distinguished witnesses.
    Mr. John F. Lansing is the chief executive officer and the 
director of the Broadcasting Board of Governors. He joined the 
BBG as CEO--that's a lot of acronyms--and director in September 
2015. Previously, he was the president of Scripps Network, 
where he is credited with guiding the company to becoming a 
leading developer of unique content across various media 
platforms.
    Ms. Melissa Hooper is the current director of Human Rights 
and Civil Society Programs at Human Rights First. Ms. Hooper's 
research focuses on Russia's foreign policy strategies of 
spreading Russian influence and undermining democratic 
institutions in Eastern Europe, and how these strategies 
intersect with existing autocratic trends.
    Ms. Molly McKew is an expert on information warfare and 
Russian disinformation policies. She currently heads an 
independent consulting firm, Fianna Strategies, advising 
governments and political parties on foreign policy and 
strategic communication. She also has extensive regional 
experience advising both Georgian and Moldovan governments. She 
also writes extensively on issues pertaining to Russian 
information warfare.
    We'll begin with Mr. Lansing, who will offer his testimony 
and inform us what the BBG is doing to counter Russian 
disinformation in the OSCE region. We'll then move on to Ms. 
McKew's testimony, where she will discuss information warfare 
and Russia's activities in this space. And finally, Ms. Hooper 
will present her analysis of Russian disinformation's influence 
over the German elections and its potential influence over 
future elections in Europe.
    So thank you very much for your testimony today. I look 
forward to hearing your discussion as we strive to better 
understand these serious threats.
    Before we begin, though, I will now turn to my colleagues 
on the Commission--Senator Cardin, Congressman Smith--for their 

comments.

 HON. BENJAMIN CARDIN, RANKING MEMBER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Cardin. Well, Chairman Gardner, first of all, it's a 
pleasure to have you here. I miss Senator Wicker, so I----
[laughter]
    Mr. Gardner. I'll do my best with Mississippi accents. 
[Laughter.]
    Mr. Cardin. Senator Wicker is just a great leader on the 
Helsinki Commission.
    But it's great to be here with Senator Gardner. You should 
all know that I serve with Senator Gardner on the Senate 
Foreign Relations Committee, and he is a passionate leader on 
so many issues on the Senate Foreign Relations Committee. So 
his help here on the Helsinki Commission today is very much 
appreciated. So thank you for chairing today's hearing.
    It's good to be here with Congressman Smith. Congressman 
Smith is not only the longest-serving member of the Helsinki 
Commission, but he has been a champion of the Helsinki 
Commission for longer than I've been in Congress, and I've been 
in Congress a long time. [Laughter.] So, Chairman Smith, it's 
good to be here with you.
    And today you truly have a distinguished panel of 
witnesses. We have three witnesses who are truly expert on the 
subject that we are dealing with today, and that is what 
Russia's misinformation campaign is all about, the risk factors 
to the United States and to our values and to our partners, and 
what we can do to counter that.
    I've repeatedly stated that Russia is violating each and 
every principle of the Helsinki Final Act's guiding principles. 
Central to Russia's strategy to undermine democratic 
institutions is a long-running effort to now sow instability 
through disinformation campaigns. So I hope that we can truly 
try to understand a little bit more about what they're doing, 
what Russia's all about, and the impact it has on the United 
States and our allies, and what we can do with the 
participating states of the OSCE in order to try to counter 
these activities.
    In a world of rapid technological and social change and 
upheaval, Russia has not merely grasped the basic applications 
of the new technology, it has exploited it, and used this 
openness of our democratic institutions to work against us. I 
must tell you, we have to admire how Russia has understood the 
means of communications today, and how they understand our 
democratic institutions, and how they've used our democratic 
institutions to advance their own agenda.
    We have seen the impact of this disinformation at home and 
abroad. Russia's disinformation has spread throughout Ukraine, 
and especially impacted the Ukrainian state's response during 
the invasion of Crimea and the war in Donbas. We've also seen 
now the impact of Russia's disinformation in the United States 
itself. Russia's Facebook users created thousands of fake 
accounts and flooded the internet with propaganda and lies 
during the 2016 election period.
    This week, as the OSCE convenes Europe's largest annual 
human rights meeting in Warsaw, Poland, a longtime participant 
and leading voice in monitoring hate crimes, xenophobia and 
extreme violence in Russia is under threat. The SOVA Center is 
now being investigated as ``undesirable.'' This is a painful 
reminder that Russia's foreign agent law, used to target human 
rights groups and civil societies in general, is one of 
Moscow's most insidious global exports.
    Russia's disinformation strategy is well funded and it is 
sophisticated. As we need to be doing a better job in response, 
the State Department's Global Engagement Center has been tasked 
in statute with assuming a larger part of this responsibility.
    I'm glad to see that the State Department has released 
resources to the Global Engagement Center. This is something 
that we had pushed very hard. I want to acknowledge Senator 
Corker and Senator Graham's efforts in helping us on the Senate 
side in getting that done. We now need to deal with rigorous 
oversight of this 
effort.
    The recent Russia sanction bill which was signed into law 
on August the 2nd included funding authorization to bolster the 
resiliency of democratic institutions across Europe. I was 
proud of the role that our committee played with getting that 
done. It now is important for us to see that it's implemented 
and oversighted 
properly.
    I must note that this is the Helsinki Commission's third 
hearing on Russia this year. The Commission has investigated 
the extensive human rights abuses in Russia and the growing 
military threat that the Russian state poses.
    The scourge of disinformation is a serious and ongoing 
challenge Russia poses against the global community in spite of 
its international treaties and commitments. This hearing is 
extremely important, and I look forward to hearing from our 
witnesses.
    Mr. Gardner. Thank you, Senator Cardin.
    Congressman Smith.

HON. CHRISTOPHER H. SMITH, CO-CHAIRMAN, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Smith. Thank you very much, Chairman Gardner, and thank 
you for your leadership. And it's just great to see you.
    And Ben Cardin and I, we do go back a whole lot of years 
working on the Helsinki Commission, particularly working 
against the nefarious Russian enterprises--not just the KGB, 
but others who have perpetrated horrific human rights abuses 
over the many years. And so it's great to be with Ben. And I 
thank him for those sanctions. He and the chairman of the 
Foreign Relations Committee crafted a very important piece of 
legislation, which is now law. So thank you, Ben.
    The most alarming thing about the Russian media's promotion 
of untruths and fake news is the extent to which it is 
coordinated by the Russian Government and put in the service of 
a doctrine of war, the so-called Gerasimov Doctrine of hybrid 
war.
    Fake news is far from unknown within our society. We deal 
with it through freedom of speech, which allows it to be 
disproven, as well as through laws against libel and 
incitement. Yet, the case is totally different when a foreign 
government coordinates the production of fake news campaigns as 
part of a hybrid war against us and our allies.
    I'd like to hear from our witnesses today how they think 
our government can work with our allies to respond to the 
threat of Russian disinformation and the threat that it poses 
against Ukraine, Lithuania, Latvia, Estonia, and Georgia in 
particular. These are countries where disinformation is most 
fully part and put in service of this hybrid war. How are we 
responding and how should we respond? And I'm sure we'll get 
some very good answers from our distinguished panel.
    Most importantly, if Russian disinformation is hybrid war 
against these frontline allies, is our military and the NATO 
alliance making counter-disinformation part of a hybrid defense 
against this hybrid war? Over the years--and I mention this 
because I've done so with Ben on many occasions--we've traveled 
to Russia many times, including during some of the worst years 
of the Soviet times. In 1982, my first trip as a congressman 
was to meet with Jewish refuseniks for a full 10 days in Moscow 
and in Leningrad. I went back a few years later, then went back 
again and actually visited Perm Camp 35, where Sharansky and so 
many other dissidents were held--he [Sharansky] had just left, 
but others were still there.
    We videotaped more than two dozen political prisoners. I'll 
never forget one of those prisoners said, ``Tell Scowcroft I'm 
here!'' He was fingered by Aldrich Ames, and was there and 
probably would have been killed, and an exchange got him out. 
But many others were there, and they told their stories. It was 
the beginning of glasnost and perestroika at the time. But that 
was still under Soviet times.
    Now, I say that because in 2013 I sought to go to Russia 
after the adoptions were shut down pursuant to a retaliation 
for the Magnitsky Act, which was absolutely well written and 
has been put into place. And under Putin, many of us have been 
not allowed even to travel to Moscow, and I have not been able 
to get a visa ever since. We could get there during the Soviet 
times, can't get there now. What does that tell you about the 
state of Putin's 
Russia?
    And, of course, to punish children, many of whom were 
already in the pipeline to find homes here in the United 
States, who would have been well loved, and out of an orphanage 
in many cases, and well taken care of, and yet that was a 
shutdown on the part of the Russian Government in retaliation 
against the Magnitsky Act.
    So we really are in a really bad situation with Russia. And 
I think a hearing like this helps to bring additional light and 
scrutiny, and most importantly from our witnesses some 
recommendations on what we could do and do better to combat 
Putin's 
aggression.
    Thank you.
    Mr. Gardner. Thank you, Congressman Smith.
    We've been joined by Senator Shaheen and Congresswoman 
Moore. Thank you very much for being here today. And if you 
would like to make additional statements now, please feel free 
to do so. Otherwise, we'll begin with the testimony and reserve 
time for opening statements during our question period. Thank 
you very much.
    Ms. Moore. Thank you, but I'll pass.
    Mr. Gardner. Thank you.
    Mr. Lansing, if you'd like to begin.

    JOHN F. LANSING, CHIEF EXECUTIVE OFFICER AND DIRECTOR, 
             BROADCASTING BOARD OF GOVERNORS (BBG)

    Mr. Lansing. Thank you, Chairman Gardner, Co-Chairman 
Smith, and members of the Commission. Thanks for inviting me to 
speak today about the Broadcasting Board of Governors' efforts 
to counter Russian propaganda and disinformation.
    I currently serve as the Chief Executive Officer of the 
BBG, where I oversee all operational aspects of U.S. 
international media, including five networks. And those 
networks are the Voice of America; the Office of Cuba 
Broadcasting, Radio and TV Martis; Radio Free Asia; Radio Free 
Europe/Radio Liberty; and the Middle East Broadcasting 
Networks, which include Alhurra TV and Radio Sawa.
    The BBG's mission is to inform, engage, and connect people 
around the world in support of freedom and democracy. We 
produce news on all media platforms, and our programs reach 278 
million people, unduplicated, on a weekly basis in more than 
100 countries and in 61 languages. We increased our audience by 
52 million from 2015 to 2016. The BBG provides consistently 
accurate and compelling journalism that reflects the values of 
our society: freedom, openness, democracy, and hope.
    Today we are encountering a global explosion of 
disinformation, propaganda, and, frankly, lies by multiple 
authoritarian regimes and non-state actors such as ISIS. House 
Foreign Affairs Chairman Ed Royce, referring to Russian 
propaganda specifically, terms it ``the weaponization of 
information,'' and I believe that captures the severity quite 
well.
    In Russia, the Kremlin propaganda machine is breathing new 
digital life into a decades-old strategy of disinformation to 
influence opinions about the United States and its allies. 
State-sponsored Russian broadcasters such as RT and Sputnik are 
expanding their global operations. In fact, earlier this year, 
a bluegrass radio station on 105.5 FM was replaced by Sputnik, 
right here in Washington, D.C. The Russian strategy seeks to 
destroy the very idea of an objective, verifiable set of facts.
    The BBG is adapting to meet this challenge head on by 
offering audiences an alternative to Russian disinformation in 
the form of objective, independent, professional news and 
information. I'd like to detail some of our key initiatives for 
you today.
    Since 2014, the BBG has added or expanded more than 35 new 
programs in Russian and other languages in the former Soviet 
space. The flagship of this effort is Current Time, a 24/7 
Russian-language digital network that we launched in February 
of this year. Current Time aims to reach Russian speakers in 
Russia, the Russian periphery, and around the world. For 
example, in Stockholm or Jerusalem or Istanbul, Russian 
travelers can now turn on the TV in their hotel room and find 
Current Time as an alternative to RT.
    If they did, here's what they might see:
    [A video presentation begins.]
    Narrator. In a complicated world, it can be difficult to 
tell what's real. But Current Time tells it like it is. It's 
television for Russian speakers worldwide, delivering news our 
viewers care about, information that stands up to scrutiny. 
Current Time brings together top journalists from throughout 
the Russian-speaking world, delivering a fresh alternative to 
Kremlin-controlled media. With headquarters in Prague and 
Washington, and more than 100 reporters on the ground in 
Russia, Ukraine, Central Asia, the Baltics, the United States 
and Europe, Current Time serves as a reality check with no fake 
news or spin. Current Time is on the air 24 hours a day, seven 
days a week, with news shows for our European and Central Asian 
audiences; top-of-the-hour headlines; a daily news digest from 
Washington and New York; a nightly political talk show, ``The 
Timur Olevsky Hour''; weekend wrap-ups from Washington and 
Prague; and a weekly analysis, ``See Both Sides,'' that helps 
viewers tell fact from fiction. Available through cable, 
satellite, IPTV and online streaming, Current Time reaches a 
potential audience of 240 million Russian speakers across the 
globe.
    And Current Time isn't just TV. Its digital platforms draw 
more than 160 million views on social media, with more than a 
quarter coming from inside Russia itself. Current Time is 
always on the road with shows that bring our viewers new 
sensations, sights and ideas; rarely seen documentaries; 
unexplored places; and ordinary people standing up to 
extraordinary circumstances, risk-takers and entrepreneurs 
building a future for themselves and their communities.
    This is Current Time's mission: real news, ``nastoyashchiye 
novosti''; real people, ``nastoyashchiye lyudi''; in real time, 
``nastoyashchiye vremya.'' That's Current Time Television.
    [The video presentation ends.]
    Mr. Lansing. Current Time is a first-ever, unique 
partnership led by Radio Free Europe in Prague along with the 
Voice of America here in Washington. It's distributed in over 
23 countries, having just launched in February, on 59 
satellite, cable, and digital distribution outfits. The Current 
Time network produces daily news shows on the United States and 
global events, including within Russia, and features reports on 
business, entrepreneurship, civil society, culture, and 
corruption, and is the leading distributor of Russian-language 
documentaries from independent Russian documentary film 
producers. In essence, it provides a Russian-language truthful 
alternative to the Kremlin's disinformation distortions and 
lies.
    Digital statistics indicate that the Current Time network 
is yielding results already. From January to July of this year, 
Current Time short-form Russian-language videos which are seen 
on social media within Russia and around the Russian periphery 
were viewed more than 300 million times, nearly three times the 
number of views during that same period a year ago. And of 
those 300 million views, half of those are coming from 
audiences inside 
Russia.
    Russian disinformation campaigns are truly a global effort, 
and the BBG recognizes this. Our programming in Russia and the 
Russian periphery is consumed by over 24 million adults on a 
weekly basis in 20 languages, including, of course, Russian. We 
have also deployed a new brand called Polygraph, a joint Radio 
Free Europe and VOA website that is, in essence, a fact-checker 
to call out Kremlin distortions and educate global audiences on 
media literacy and how to spot fake news.
    Russia has jumped to criticize these and other BBG efforts. 
A Russian state news organization charged that these programs 
are all produced by ``Russian people who put the interests of 
America above the interests of Russia.'' Our journalists have 
also come under attack and are under increasing pressure and 
intimidation in Moscow.
    In addition to the nearly half-billion-dollar combined 
budgets of RT and Sputnik and other Russian international 
media, the Russian Government also targets Russian speakers 
around the world with its vast resources of its domestic state-
controlled news and entertainment networks. By contrast, the 
BBG's FY 2017 budget is $786 million, but spread across 61 
languages.
    Make no mistake, the United States is confronted by 
information warfare, and I don't use that term lightly. The 
good work of our journalists around the world is an essential 
element of the national security toolkit through the export of 
objective, independent, and professional journalism, and the 
universal values of free media and free speech.
    There's one thing we won't do, and that's propaganda. Our 
content is protected by a legislative firewall that prevents 
the U.S. Government interfering in our editorial decision 
making. Now, that's important to understand.
    I'll close with a quote from Edward R. Murrow, who served 
as the director of U.S. Information Agency from 1961 to 1964, 
the predecessor of the BBG. He testified before Congress and 
said: ``To be persuasive we must be believable; to be 
believable we must be credible; and to be credible we must be 
truthful.''
    His words ring true today, more than ever.
    Thank you.
    Mr. Gardner. Thank you, Mr. Lansing.
    Ms. McKew.

             MOLLY K. McKEW, CEO, FIANNA STRATEGIES

    Ms. McKew. Good morning. Thank you, Senator Gardner, 
commissioners. I am grateful to have the opportunity to share 
some of my experiences countering Russian information warfare 
in the past decade.
    It's been 10 months since we were informed that an 
information war is being waged against the American people. Our 
actions say that we're still trying to decide if this is a real 
threat or not. We must be clear about what these measures aim 
to achieve.
    First, Russian disinformation is a means of warfare. It's 
the core component of a war being waged by the Russian state 
against the West, and against the United States in particular. 
As I outline further in my written testimony, Russian doctrine 
is quite clear about the importance, primacy, and aims of 
information warfare. The Kremlin is operationalizing a 
fundamentally guerilla approach to total warfare in order to 
achieve strategic political objectives in a kind of global 
imperialist insurgency. Within this, the smoke and mirrors of 
information operations are a primary means of power projection.
    Second, the main line of effort in this war is conducted in 
English. We have failed to secure our information space, 
allowing our self-defined primary adversary to shape and 
sometimes control it at will.
    Third, we have failed to understand the importance the 
Kremlin ascribes to these efforts and the resources, formal and 
informal, that it devotes to them. The Kremlin has built 
sophisticated information architecture inside our information 
space. It is constantly reinforced and expanded by the creation 
and dissemination of considerable amounts of content. It 
increasingly relies on computational propaganda--artificial 
intelligence, botnets, and other means of automation, as well 
as data-driven targeting.
    We don't compete offensively or defensively in that war. 
Yet, in many respects, it is the war that matters most. 
Information tools are the new super weapons, shifting the 
fundamental balance of power between adversarial forces.
    The Kremlin believes that people are the most exploitable 
weakness in any system. What the Kremlin sees, for example, is 
that Facebook is a means of collection and a means of 
operationalizing information operations effectively and 
inexpensively: a real-life, free-market, big-brother platform 
for surveillance and computational propaganda available to any 
power that is willing to pay for it. Russian information 
operations have come of age with social media.
    Information warfare now plays a significant role in shaping 
the information environment of our elections and other 
political discourse in Europe and in the United States. I 
detail some examples of this in my written testimony, including 
how Russian-backed information operations in Georgia and 
Moldova have helped to alter the political landscape.
    I want to emphasize this is not about information, but 
about eliciting behavioral change and about action. 
Disinformation has purpose. ``What did it aim to achieve'' is 
often a more important question than if it is true. Russian 
information operations are used to activate people and groups 
in different ways when information is applied on prepared 
networks. They are integrated into the operational footprint of 
Russia in Europe and beyond, combining intelligence resources 
with access to technology and information capabilities, 
operating with few creative limitations and backed by 
considerable state resources.
    There are a few examples of these from recent news. During 
the 2016 United States elections, Russian Facebook pages were 
used to organize anti-immigration protests in the United 
States. In January, a Russian information campaign sparked 
protests in Germany about the so-called Lisa case, a false 
story about a young girl brutalized by refugees. In June, 
Russian hackers planted a false story in Qatar's news agency 
which spread and contributed to a major diplomatic rift in Gulf 
Arab nations. And this year, Russian information operations 
have aimed to inflame a rift between Poland and Ukraine based 
on historical debates.
    These examples show that Russian information operations aim 
to deepen divides and amplify unrest, to achieve political 
outcomes, and to identify enemies for us, internal and 
external. The Kremlin would rather that we fight ourselves and 
fight each other than be unified against Russian ambitions and 
against their interference.
    These manipulations don't create tendencies or traits in 
our societies. They elevate, exploit, and distort divides and 
grievances that already are present, and they amplify fringe 
views. Russian information operations are a dark mirror of our 
weaknesses in which no one really wants to see themselves.
    Russia likes to position their doctrine as a response to 
American actions. It's more helpful to understand that the 
tools they deploy against us they have used against the Russian 
people first. They forcibly secured their information space 
before they attacked ours.
    We, as Americans, want to believe this warfare doesn't work 
on us, that oceans are still a barrier to foreign invasion. But 
we really have no basis in fact for remaining comfortable with 
that belief. We do need a new kind of star chamber coordinating 
our best assets--diplomatic, military, intelligence, industry, 
nongovernmental, and informal--to counter the information war 
launched by the Kremlin's power vertical.
    I highlight additional measures for securing our 
information space in my written testimony, but I would like to 
highlight a few in brief.
    First, we need a whole-of-government response driven by a 
unity of mission. Clear leadership amplifies results. If our 
government is more open about the threat and the results, media 
and civil society actors, for example, can follow along and 
take more action.
    Second, we also need an integrated whole-of-alliance 
approach with our NATO and EU allies. Some, especially Estonia 
and Lithuania and Ukraine, bring critical capabilities, insight 
and experience that we need.
    Third, irregular warfare, including information warfare, 
will be fought within our borders. This means we need to 
rethink authorities. Our most experienced assets shouldn't be 
boxed out of defending the American people. We need sanctioned 
irregulars to build defensive and retaliatory capacity in 
information operations, and a good place to start would be a 
combination of U.S. Special Forces--who are, by mission, 
trained to fight unconventional wars--with counterintelligence 
and independent actors. We must also work with our trusted 
allies on the geographic front lines of NATO using--as you 
noted, Senator Gardner--the 10th Special Forces Group, our 
Europe-aligned group, which brings a range of knowledge and 
experience in countering Russia to the table.
    Fourth, Americans need to be armed with defensive tools. 
One of these is stronger data and privacy protections that will 
limit the coercive applications of big data.
    Fifth, we need to evaluate how to restrict tools of 
computational propaganda on social media and whether that is 
something that we can do.
    Finally, we must be far more aware of how the export of 
Russian capital into our system is influencing critical 
industries, including tech and big data.
    We should never emulate the Russian information-control 
model. Disinformation has purpose, but fighting it must also 
have purpose. If we aren't clear about what that purpose is, 
what we are fighting for and what we believe, then we can't 
win. But this has been an open battlefield for the Kremlin for 
more than a decade, and it's not a war we can afford to lose.
    Thank you.
    Mr. Gardner. Thank you, Ms. McKew.
    Ms. Hooper.

  MELISSA HOOPER, DIRECTOR OF HUMAN RIGHTS AND CIVIL SOCIETY 
                  PROGRAMS, HUMAN RIGHTS FIRST

    Ms. Hooper. Senator Gardner, Co-Chair Smith, members of the 
Helsinki Commission, I want to thank you and Chairman Wicker 
for giving me the opportunity to testify regarding the damage 
caused to democracy and human rights by Russian disinformation 
efforts in the United States and Europe, and efforts to combat 
them.
    I've submitted a longer statement. I will highlight a few 
points here.
    Since the election, Congress and other policymakers have 
become increasingly sensitized to the Russian Government's use 
of various forms of disinformation. However, I should emphasize 
that the use of disinformation is not the Russian Government's 
sole strategy. It is part of a coordinated effort to disrupt 
and attack liberal norms wherever the opportunity arises, using 
economic influence, electoral disruption, and the weakening of 
multilateral institutions, among other strategies.
    At Human Rights First, we've documented the effectiveness 
of these threats in Eastern Europe, including how Russia has 
contributed to significant backsliding on democracy and human 
rights in Poland and Hungary, each a NATO ally. Importantly, 
Hungarian and Polish publics largely disagree with anti-EU and 
anti-
democracy messaging. Nearly 80 percent want to stay in the EU 
and NATO despite propaganda attacking these institutions. Thus, 
investments in Eastern Europe that shore up democratic 
institutions are likely to yield positive results.
    In addition to media propagation of disinformation, Russia 
sponsors government-organized NGOs, or GONGOs, across Europe 
that contribute their own false and misleading analyses and 
expert statements. Two Berlin-based Russian-funded 
organizations are Boris Yakunin's Dialogue of Civilizations and 
the German Center for Eurasian Studies.
    Recently, I conducted research into Russia's use of these 
think tanks, their contributions to disinformation, and 
possible links to the far right and ultranationalist 
Alternative for Deutschland and National Democratic Party in 
the run-up to Germany's election. What I found was that the 
Russian-funded think tanks and German far-right parties were 
putting out similar messages on a number of key topics, 
including the EU, NATO, the United States, Western democracy, 
and Western media.
    In general, these included attacks on multilateral 
institutions built on liberal democratic values and indictments 
of these institutions as serving only elites. Specifically, 
both argue that Western democracy has been degraded by 
multiculturalism and Western media is untrustworthy, as well as 
that the EU and the U.S. are not truly free or democratic.
    It bears noting that the reach of these campaigns is at 
present quite small. Germany seems to be prepared to fend off 
interference around its upcoming election. German leaders have 
issued public warnings about potential Russian cyberattacks and 
disinformation and developed working groups and contingency 
plans. The German public has therefore been sensitized to the 
possibility of interference. However, about 3 million Russian 
speakers in Germany continue to be targeted daily with 
disinformation about refugees, same-sex marriage, terrorism and 
defense issues.
    Germany has also made some missteps in responding to 
disinformation. The Network Enforcement Act passed in June 
essentially forces social-media companies to be the arbiters of 
what constitutes free speech and what violates German law. This 
is a dangerous, shortsighted approach and will inevitably force 
these corporations to rely heavily on censorship.
    In January, then-Director of National Intelligence James 
Clapper said that the attacks that occurred around the U.S. 
election were a ``clarion call for action against a threat to 
the very foundation of our democratic political system.'' This 
threat is not confined to the immediate run-up to elections. 
Challenges to our democracy are occurring right now, and the 
U.S. has been slow to respond.
    So what do we do? First, I agree with Ms. McKew that the 
U.S. Government needs to unify around the conviction that 
Russia used disinformation in the United States. By no means is 
it the only purveyor of false and misleading information, but 
it remains a leader in pursuing this phenomenon for political 
ends.
    The U.S. Government needs to present a unified front to 
European allies, partner with them in combating this threat, 
and also take a leadership role in crafting a thorough and 
methodological response.
    Second, Congress needs to work with other government 
bodies, tech companies and civil society to gain a more 
comprehensive understanding of how disinformation works and can 
be combated to ensure that all bodies are on the same page and 
there is a comprehensive plan and approach. It shouldn't rely 
on shortsighted responses similar to the German law.
    Third, much of the U.S. Government's focus has been on 
messaging and public diplomacy, but we also need mid- and long-
term strategies to support democratic institutions and values 
overseas. For example, funding for the Global Engagement Center 
is important, but its focus on messaging is only one tool. It 
isn't by itself a comprehensive response. The best 
advertisement for democracy and human rights is the 
demonstration of strong, well-functioning democratic 
institutions. We need to show people, not just tell them.
    On the part of Congress, this means adequately funding 
democracy and governance programming, including in Eastern 
Europe, a region we formerly thought had graduated from 
authoritarianism. For example, the European and Eurasian 
Democracy and Anti-
Corruption Initiative, introduced by a bipartisan coalition, 
including some from this Commission, would commit $157 million 
for innovative projects to combat Russian disinformation and 
influence in Europe, like those that we believe are helping 
Germany fend off interference in its election.
    At a time in which democratic values and institutions are 
being undermined and challenged directly, we need to invest 
resources in these mainstays of sustainable security and 
prosperity. Nations are looking to us for guidance in dealing 
with this new type of threat. We need to step up and lead.
    Thank you.
    Mr. Gardner. Thank you, Ms. Hooper.
    I thank you all for your testimony. It's intriguing, 
fascinating and frightening at the same time. There's a saying 
in politics that politics is the only place where sound travels 
faster than light. I didn't come up with that. It's actually 
printed on the wall in one of the restaurants here in town. But 
I think it has great meaning, because we're dealing with 
information here that, once out there, can't be pulled back.
    And as children we were taught that if you're on the 
playground and somebody hits you, it's always the one throwing 
the second punch who gets caught. But in this case, it's the 
first one that matters and the second one that no one pays any 
attention to.
    So tell me, Ms. Hooper, Mr. Lansing, Ms. McKew: How do we 
respond to misinformation in a way that is elevated to the 
level of that first attention grab of the actual disinformation 
itself?
    Ms. Hooper. I think you pointed out correctly, Senator 
Gardner, that just correcting facts after the fact, which is 
important, is not going to have the same punch. It doesn't have 
the same breadth and reach. We find in studies that often a 
correction makes the initial statement more viral, because 
there is some attempt at censorship. So correcting can be 
sometimes harmful.
    I think there are a couple of ways that we can have that 
kind of impact. One is something called counter speech. At 
Human Rights First, we have studied narratives about certain 
communities, like the Lisa case, and narratives about 
immigrants and refugees. Putting out stories and narratives by 
these communities, about these communities, is important. 
Initiating that communication and putting out information that 
counters the information we think is going to be falsely 
presented is helpful.
    And then I think that what Mr. Lansing has discussed is 
media literacy, educating people about being critical of 
information that could be put out. I think the German 
Government has done a really good job of that around the 
election, coming together and communicating to their population 
to be on the lookout for this. That helps a lot.
    Mr. Gardner. Mr. Lansing or Ms. McKew, would you like to 
add to that?
    Mr. Lansing. Senator Gardner, your point is very well 
taken. And I think, in terms of the BBG's perspective, it's 
both an offensive and a defensive strategy. We've really taken 
to the offensive. You saw the example of Current Time, of 
telling stories and showing documentaries that Russian language 
speakers, within Russia and outside of Russia, just never see, 
that they're blocked from seeing. So offensively, we're 
bringing information and content to audiences that, by the very 
existence of that content, indicate that they're being blocked 
from other content.
    And then, defensively, Radio Free Europe/Radio Liberty has 
done a fantastic job with investigative reporting. In fact, 
they had one investigative report earlier this month that 
definitively proved that there were Russian armor and tanks in 
eastern Ukraine based on identifying them visually with a 
camera and then matching them to tanks and armored personnel 
carriers seen in Red Square during a parade.
    So that kind of offensive/defensive, punch/counterpunch 
helps us gain some advantage so we're not always on a tit-for-
tat trying to correct the record.
    Ms. McKew. Just very briefly, to add to what was just said, 
on our side, and again, focusing on English and not on 
Russian--which I believe is an important but very separate 
problem--being clear on the threat and the goals and the 
purpose of what Russia is doing, especially to the United 
States, but in our information space more broadly, is extremely 
important.
    Based on polling and other surveys, many Americans don't 
believe it is happening and don't believe it would have any 
impact on them. The core of this, which is what's so unnerving, 
especially if you sit with some of the information--warfare 
experts in countries that pay a lot of attention to this, is 
that none of this is the ``secret sauce'' they all want us to 
believe it is. It's marketing. It's basic human psychology 
utilized in new technological ways. But it's very effective in 
the ways it's being applied, because it's encountering open 
space to move into. There's nothing coming from our side.
    Open-source intelligence projects and investigative 
journalism and exposing disinformation are very important 
initiatives, but none of them fill the most critical space, 
which is narrative and which is storytelling; what is the 
purpose of what we are doing and how we are delivering that to 
people. That's an open space right now in which there is very 
little leadership. For me this is the first step in 
coordinating what our response needs to be in a way that will 
be noticed by people, because we've been very absent from it in 
the past decade.
    Mr. Gardner. Thank you.
    And the Co-Chair of the Commission, Congressman Smith.
    Mr. Smith. Thank you, Chairman.
    A couple of questions. First, as you know, recently the 
news broke that the FBI is investigating Sputnik for a possible 
FARA violation and that the U.S. associate of RT has been 
ordered to register with DOJ as an agent of a foreign 
government. I'm wondering if you thought that was a good step. 
Will it have positive consequences?
    Mr. Lansing. Congressman Smith, I'm aware of that 
information. It's in the press. There are consequences to 
anything that would look like an attempt by the U.S. Government 
to limit or block Russian media in the United States. That's 
not to say it's not a good idea, but I would suggest that there 
would be consequences.
    We currently have a bureau in Moscow with approximately 50 
journalists, mostly RFE/RL and some Voice of America and I 
worry about a reciprocal response. But at the same time, I 
think it is a complicated problem, because you have the 
activities of RT and Sputnik that clearly appear to require 
some investigation.
    Mr. Smith. OK.
    Ms. McKew. I might just add to that quickly, amplifying a 
point that Senator Cardin made in his opening remarks about the 
information warfare tactics that were applied in eastern 
Ukraine before the invasion--I think something we really need 
to look at is what are these organizations, because they're not 
just media. They're not just reporters.
    Starting as far back as the Georgian war in 2008, certainly 
in Ukraine and in Crimea, the first wave of the war was the 
arrival of Russian journalists and the establishment of 
communications from those areas, including completely false 
video, a narrative that was being established to justify the 
means of invasion.
    So I think it's a very complicated area, the free speech, 
how-do-we-not-become-Russia-while-responding-to-Russia problem. 
But these are not standard media organizations, and they are 
worthy of separate consideration from other things, like BBC, 
NHK, other state media, which are not at all similar to what 
Russia does with their state media resources.
    Mr. Smith. One of the concerns that I have--Mr. Lansing, 
you might want to take this--is there a thought of creating a 
Current Time for China? I co-chair the China Commission with 
Senator Marco Rubio. My committee, the Human Rights Committee 
of the Foreign Affairs Committee, that and with the China 
Commission, I've chaired 62 hearings on China and Chinese human 
rights abuses.
    There are threats to human rights all over the world. 
Russia and China pose among the most egregious threats to human 
rights and freedom the world has ever known. And taken 
together--and they do work increasingly together--I think we 
are in a very precarious time in our history.
    My question would be--especially at a time when CCTV is on 
a tear, just like the Russians are, to propagandize not just 
Americans but the world, with the narrative about Xi Jinping's 
benign benevolence and everything else--I watch CCTV just to 
stay abreast of what they're doing, their hatred towards Japan 
and the harkening back to the atrocities committed by the 
Japanese is a regular feature on that television network--and 
yet we have been cutting Radio Free Asia slots at the precise 
time when we should be tripling it.
    So my question would be, there seems to be a sense in our 
government and elsewhere that we give China a pass while we 
focus on Russia. Now, we should enhance our work against 
Russia. And I think the work that Current Time is doing, I 
think that's a very, very responsible and responsive attempt to 
really get the truth out.
    But, that said, we are diminishing our capacity to get the 
truth out in China. As a matter of fact, it is demonstrable. I 
meet with the folks that run the Radio Free Asia efforts, and 
VOA has got a similar problem, and they are aghast. They're 
appalled that we are lessening our ability to tell the truth in 
that dictatorship. And again, they operate unfettered here in 
the United States through CCTV and other means. They're even 
buying Hollywood, as we all know, so that there will not be a 
criticism leveled against the Chinese dictatorship, because if 
you want to get your movie, if you want to get your screenplay 
approved, it will be censored.
    And we saw that all happen some years ago--and I had the 
first hearings, and then several more over the years--on global 
online freedom, or the lack thereof, where Google and others 
would voluntarily censor, as the price of admission to that 
market, what happened at Tiananmen Square. And Google, I swore 
at them, and Yahoo, Microsoft and others, and I was sickened by 
the complicity of U.S. corporations to kowtow to Beijing. While 
the economic interests are nowhere near as robust with Moscow 
as they are with Beijing, we have enabled dictatorship through 
these actions.
    So Current Time--is there something similar planned for 
China? And again, there seems to be a double standard when it 
comes to China and our lack of robust broadcasting there and 
right now, as we meet, the downgrading of Radio Free Asia. I'm 
the one who offered the amendment to make it 24 hours a day 
when it was a part time because there's much more that we could 
be doing in that.
    And let me just ask one final question. I have many, but 
time doesn't permit it. How would all of you assess the 
European governments' efforts to counter Russian 
disinformation? Are we working as collaboratively as we could? 
Estonia, as we know, has made a valiant effort to step up a new 
Russian-language television station, ETV+, to counter Russian 
propaganda. But one country alone can't do it. What can be done 
to coordinate those efforts with our European friends and 
allies?
    Mr. Lansing. Congressman Smith, thank you. I agree with 
everything you said there.
    As far as China, we consider China and Southeast Asia and 
the China periphery to be on a par with Russia as the top two 
information battlefields that we're dealing with. Thanks to the 
successful and positive mark we have from the U.S. Senate for 
FY 2018, I think we'll be able to enhance and not reduce our 
RFA coverage, as a matter of fact. And, in fact, we had a 
special appropriation from FY 2017 that allowed us to develop 
programming with Radio Free Asia and Voice of America for the 
first time to create television content for North Korea.
    I think we'd all agree that the North Korea situation and 
the connection with China right now is a key foreign-policy 
issue for the United States, and we're focusing on that right 
now. And we've already developed some very interesting 
programming that counters the narrative in North Korea about 
what it's like for Koreans living in the United States or for 
those in South Korea as well.
    We're investing in China and its periphery. As with Russia, 
it's difficult to get television into China and parts of 
Southeast Asia. We just yesterday went through a situation 
where we were shut down. Radio Free Asia was shut down in 
Cambodia by President Hun and we're evacuating our people from 
Cambodia today. So it's a tinderbox of information complexities 
and we're facing it head on.
    Mr. Smith. I appreciate it.
    Just one final thought, if you could answer those other 
questions as well. Are you thinking of a  Current Time-type of 
effort for China? And again, RFA Mandarin Service is facing a 
94 percent cut. I'm encouraged that you're happy with the 
appropriation.
    Mr. Lansing. Yes, the mark will allow us not to have to do 
that.
    Mr. Smith. Great. Completely not to do it?
    Mr. Lansing. Yes. Correct.
    Mr. Smith. That's great.
    Mr. Lansing. And the Current Time approach is, in essence, 
the approach we've taken in the last two years that I've been 
in this chair. To take our five networks and use them together 
for a greater impact. That's what we're doing, for instance, 
with the North Korea programming. It's the Voice of America and 
Radio Free Asia working together, one telling America's story 
through the Korean diaspora and one telling the story of 
Koreans in South Korea.
    So the answer is ``yes,'' philosophically, to the approach 
of Current Time, which is to use multiple networks to have 
maximum impact and use taxpayer dollars more efficiently by 
doing it that way.
    Mr. Smith. Thank you.
    Coordination?
    Ms. McKew. Just two quick points on that. I think that 
there's a range of European efforts that are under way--some 
are in Russian, some are in other languages--focused in these 
same areas of investigative journalism countering Russian 
disinformation. But again, English language resources are 
absent.
    The Baltic example that you mentioned is a good one, where, 
yes, they're doing more Russian-language broadcasting, but 
English-language news from the Baltics is still very much 
controlled by Russia. The primary news sources in English are 
RT and Sputnik coming out of the Baltics. There needs to be 
more English-language resources that are not driven by Russian 
content from a variety of regions in the world.
    I think the beginning of how we coordinate that response, 
something we need to look at more closely is using our 
military-to-
military relationships as the core of this effort. Those are 
really the steel in our alliance, especially in NATO. In times 
of political shifts in many countries, and other uncertainties, 
those really anchor the direction of where we're going. There 
are tremendous capabilities there that I think we--especially 
sometimes our diplomatic core--tend to sideline and want to 
keep out of non-conflict areas, but there's tremendous 
capability there that can be used in fighting these types of 
hybrid warfare that we need to utilize more efficiently. Also, 
I think how do we coordinate everything else is, the United 
States of America as a full unified government needs to make 
clear that we're in this fight and that we stand with our 
European allies on countering Russian aggression in the 
information space and elsewhere. Right now that is not 
necessarily clear to our allies in Europe.
    Mr. Gardner. Thank you, Congressman. Thanks.
    And for those of you who haven't seen it, some of the 
content that they have directed toward North Korea is very 
good, and I would encourage you to have a chance to see that 
because we're starting to do some very unique things, thanks to 
the bill that both the chambers passed last Congress that 
authorized significant funding for some of those new programs. 
That was one of the good things we did in bipartisan fashion 
here as it relates to North Korea.
    Congresswoman Moore.

   HON. GWEN MOORE, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Ms. Moore. Thank you so much, Mr. Chairman.
    And I want to thank this distinguished panel. I do look 
forward to having the opportunity to really read your written 
testimony thoroughly and continue to engage with you on these 
issues.
    I'm going to try not to be as long as my good friend Chris 
Smith in asking this question. I'm going to work on this. I'm 
going to try hard. [Laughs.] I'll try hard not to make my 
question as long as yours, but this is a very, very complicated 
issue.
    I once asked James Clapper, the former director of national 
intelligence, whether or not he thought that some of the stuff, 
Ms. McKew, that you say is not secret sauce. It's just basic 
human psychology and knowing how to manipulate people that has 
shown that it's effective--asking him if he thought that absent 
proof that there was actual manipulation of votes or voter 
rolls and so on, whether or not these sort of psychological 
messages had an impact on voter turnout or voter choices. He 
said that the intelligence agencies really weren't equipped or 
they just really didn't or couldn't make that kind of 
assessment. I found that very distressing. I can't remember 
whether it was you, Ms. McKew, or Ms. Hooper that made the 
point that it's not just diplomacy that we've got to do, but we 
have to build out our technological infrastructure. I do know 
that, Ms. McKew, you are the one that made the point that until 
we all get on the same page and admit that the Russians 
interfered in our election, that we aren't going to be able to 
move forward.
    So here's my question: Like climate change deniers, is 
there some sort of drop-dead date that we better come up with 
in terms of getting our act together, getting on the same page 
with the Europeans, putting the appropriate assets in the State 
Department to build out infrastructure and capacity before it's 
going to be too late and they are really going to infiltrate 
this space and have it become a virus or germ that we won't be 
able to reverse it?
    Ms. McKew. Thank you, Congresswoman, for the thoughts and 
the question.
    I think there's never a ``too late,'' but I think we're 
really late in responding, and I think for a variety of 
reasons, policy driven and otherwise, we've been late coming to 
this fight.
    And at this point, I think it's hard not to argue that 
there have been significant shifts. The erosion of belief that 
institutional democracy can deliver for representative 
populations, the erosion of belief that institutions matter in 
many Western societies, certainly the erosion of the belief 
that this is something other countries want to pursue, are 
things that have very much developed over the last decade in 
parallel with Russian disinformation operations. So interpret 
that how you will, but I think that our voice needs to be in 
that space in a way that actually celebrates and represents our 
values in ways that we haven't seemed to be willing to do in 
quite some time.
    I think that if you're looking at the evaluation of proof 
of manipulation based on information operations, it's very hard 
to do, as Clapper suggested. But if you look at shifts in 
opinion during that same period of time--in particular the 
period between summer 2015, when we know there was an 
escalation in Russian activity in our information space--and at 
parallel shifts in opinion on key issues in certain voting 
populations in the United States--on issues like free trade 
there were significant shifts in opinion. I think it's hard to 
say that what they were doing didn't have an impact. And what 
we have seen them do in other countries, particularly in 
countries like Georgia and Moldova and in Ukraine, is focus 
very much on voter suppression or mobilization, on how to get 
people to vote or not vote based on who they are.
    Ms. Moore. And to that point, I received several robocalls 
based on these algorithms and, you know, targeting African-
American women, and so on, to suppress the vote. I got a call, 
clearly a Slavic voice--and they knew that I hadn't voted 
early--saying it's not too late, you haven't voted, but if you 
vote for Hillary Clinton, she will deliberately start World War 
III. Now, you know, being sort of a peacenik-type person, I 
mean, it's easy to determine from my social footprint that I 
would be vulnerable to such a message.
    And in terms of the whole Facebook thing, targeting its 
users, we are hearing that they targeted Facebook folks, and 
anybody who talked about mass incarceration or racial 
injustice, people were targeted for the super predatory message 
about Hillary Clinton and news of that fashion. And so I am 
wondering, is there an opportunity for us--since James Clapper 
says that our intelligence agencies are not doing it--is there 
some technology that we have to counter these psychological 
messages? Is there something you can point to that we could do?
    Ms. McKew. Absolutely. And I think the points you raise are 
really good ones. And your point about the campaign targeting 
and messaging targeting is really important to me, because I 
think people believe these things aren't happening, because we 
don't see the same information anymore. The stuff that would 
have been targeting you on Facebook or in person is not the 
same things that I would have been getting.
    And the first time we saw that used in that specific way, 
it was in the Georgian elections in 2012, where there were 
these totally separate information universes created on 
Facebook to mobilize or demobilize parts of the population in 
very different ways. So I think the solution to that, there is 
a technological piece of this.
    But the problem is, who's motivated to find it? Industry--
that being social media companies and data and technology 
firms--make a lot of money off of this. They are not interested 
in shutting this down. And the solution, they seem to be 
suggesting, is the best way to fight automated content online 
is to create more automated content online so we can get double 
the advertising revenue--which I don't think is the best 
solution when we're talking about persuasive views and people's 
opinions in between.
    But there is certainly an industry role to be played in 
this, an evaluative role, especially from the Congress, to be 
played in what can be done to limit the ability of social media 
to use computational propaganda, and for foreign adversaries in 
particular to use this for these types of information 
operations and not just advertising, it's not just selling 
shoes. This is about aggressively changing the views of 
individuals, and we need to be aware of that.
    Ms. Moore. Thank you so much.
    And thank you, Mr. Chair.
    Mr. Gardner. Thank you.
    Ms. Moore. Well, I have to go back to the ``House of the 
People'' to vote. [Laughter.]
    Mr. Gardner. Well, several of us are housebroken already! 
[Laughter.] Ben and I are housebroken. [Laughter.] Thank you, 
Congresswoman, for being here.
    Senator Shaheen.

 HON. JEANNE SHAHEEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mrs. Shaheen. There are some of us that think that's the 
problem with the Senate. [Laughter.]
    Let me begin by thanking each of you for being here, for 
your testimony and for the work that you're doing in this 
space. I believe that this disinformation is one of the biggest 
threats that our democracy faces today. And I think that one of 
the reasons that we have had trouble developing a whole-of-
government approach is because the first thing that really got 
the attention of the American people was the Russian 
interference in our elections in 2016, and that was viewed 
through a partisan lens as opposed to being viewed through an 
understanding that this is a threat to the foundations of 
American democracy. It has nothing to do with Republicans and 
Democrats. It's all about how do we undermine democracy in 
America and in the West. So I especially appreciate what all of 
you are doing.
    I want to go back to the whole-of-government approach, 
though, because on the one hand, Mr. Lansing, you talked about 
the importance of keeping all of the work of the BBG separate 
from government so it's not viewed as propaganda, which I 
appreciate and I agree that that's important. But it also makes 
it difficult, then, to develop a whole-of-government approach.
    I've had a chance to ask members of the military about 
whether we should have a unit in our military that deals with 
disinformation, and they punted to the State Department. 
Russia, on the other hand, does have that kind of unit in their 
military. So the question is, how do we develop that whole-of-
government approach given the various interests that we have 
within our government and the partisan challenges that we still 
face in terms of dealing with this issue?
    Mr. Lansing. Senator Shaheen, I'll start and then defer to 
the other panelists.
    I would just say that I appreciate, and the BGG 
appreciates, your leadership on the issue of disinformation in 
the Senate and you keeping it highlighted the way you have. As 
we think about the BBG--and I discussed earlier the firewall 
that protects the independence, as you said, so that the 
content is not viewed as propaganda--that doesn't mean that 
we're not connected to the Federal Government. We're very much 
connected. In fact, on our board there are nine board members. 
It's a bipartisan board, but the Secretary of State, or his 
designee, serves on our board. And we have regular contact with 
the State Department. So when we make decisions about where 
we're going to deploy assets around the world, the decisions 
are made based on the information that we learn and understand 
through our colleagues at State and sometimes other agencies. 
So it's no mistake that we're emphasizing Russia and the 
Russian periphery, and China and the China periphery, and ISIS 
in the Middle East as our top three priorities. Because we 
understand that, because we stay connected with the U.S. 
Government. So we can still be involved in a whole-of-
government solution. We just have a very unique lane that we 
operate in. Others could do information programming that would 
not be in our lane. They could do any number of things.
    Mrs. Shaheen. Ms. McKew.
    Ms. McKew. Thank you, Senator. And I would also thank you 
for your leadership on the Kaspersky issue, which is something 
that has driven many of us crazy for a long time. I'm glad to 
see we're finally moving forward on getting that out of our 
government infrastructure, and hopefully the rest of the 
country as well.
    It is a complicated issue. However, I think the one thing 
we can really look at, right now no single part of our 
government and no single part of our civil society or industry 
or anything else wants to take leadership on this because there 
isn't that center to activity. And when it's created and 
everybody has to be in the room, suddenly, good things happen. 
I think the one thing from the Russian side we really can seek 
to emulate is the informality and creativity that comes from 
throwing various parts of a mechanism into a room together and 
seeing what comes out the other side, where you have 
intelligence talking to industry, where you have military 
talking to diplomacy in a much more integrated way on the 
threats, how to respond to them, what to do if you're thinking 
offensively, certainly.
    Mrs. Shaheen. But let me just interrupt you for a minute.
    Ms. McKew. Yes.
    Mrs. Shaheen. Because I think you hit on one of the things 
that's the real challenge, and that is we don't currently have 
anybody in charge.
    Ms. McKew. Correct.
    Mrs. Shaheen. So, again, I've asked the State Department 
about this. They have not moved forward very rapidly with the 
funding on their Global Engagement Center, and they were not 
excited about being the point person on this issue. So who 
should be in charge? Where should the leadership for this 
reside, and the 
direction?
    Ms. McKew. I think until it's clear that the White House 
believes this issue is something we need to address forcefully, 
that is a very difficult question. But it needs to be something 
that's assigned to an individual within our government 
somewhere to lead this effort.
    I think you see a lot of things sitting out there waiting 
to be used. The GEC is a good example, where Congress has been 
forcefully saying create this, use this, here's some money. Why 
aren't you doing anything with it? It's still sitting there. In 
the Pentagon, there's an entire part of the Pentagon that deals 
with information operations. What are we doing with them right 
now? The Marine Corps just created a new directorate of 
information operations. Why aren't they coordinating with the 
other military branches that work on these things? Again, 
special forces have great capacity in Military Information 
Support Operations, and none of these are coordinated. They're 
all sort of drifting around. And again, none of these things 
have any mandate to look at what is happening inside the United 
States, coordinate with counterintelligence.
    And there was a really good piece in Politico last week by 
Asha Rangappa talking about this, that there's no authorities 
for counterintelligence to look at social media or counter, you 
know, sort of aggressive, hostile information operations within 
the American information space. There's just a lot of 
rethinking that needs to be done in terms of authorities and 
how we respond. And until there is some sort of coordination 
body, I just don't know how we get to that answer.
    But certainly, the Senate and the Congress can provide 
leadership on this by sort of forcefully mandating that we move 
in this direction and that there is somebody within the U.S. 
Government looking at legal authorities, sort of organizational 
authorities, structure of political will. And even if everybody 
doesn't show up, maybe you get enough people in a room to have 
a critical mass to move forward, or at least to use what is 
already there that we are currently not coordinating and not 
utilizing well.
    Mrs. Shaheen. Thank you. I know I'm out of time, but can I 
just get Ms. Hooper to respond to this as well?
    Ms. Hooper. Sure, very quickly. I think that we have seen 
some leadership coming from Congress where the White House and 
the Secretary of State have left a gap, and I would encourage 
more of that leadership in this space, in terms of looking at 
the funding for democracy programming in the State Department. 
And again, holding hearings and raising this issue repeatedly, 
I think that's where we are seeing leadership. We're going to 
need more of that, but it's going to also need to coordinate 
with technology companies, for example, and also civil society, 
where there's expertise as well.
    Mrs. Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Mr. Gardner. Thank you.
    Senator Cardin.
    Mr. Cardin. I think Senator Shaheen is raising some 
extremely important points. The Congress has tried to intercede 
to focus on this issue, to coordinate the activities of various 
agencies. I must tell you, I've been extremely impressed by the 
work in our intelligence community in this area. They've been 
very active, and they have shared that information not just 
with the Congress but with our friends around the world. So 
there's been some strong coordination on the intelligence front 
as to what is happening.
    Where we haven't seen the attention is on how you counter 
it, how you protect and counter. That's where I think we have 
really not seen the work. I've had some meetings with our 
colleagues in NATO and the EU to try to energize better 
cooperation. Congress has authorized funds for international 
efforts. Those funds were just recently released. There's 
also--and Senator Gardner and I have talked about it--in our 
oversight functions there really hasn't been a clear 
responsibility. The Senate Foreign Relations Committee has, I 
think, the principal responsibility here. There are other 
committees involved. But we haven't really focused on that 
aspect of it. And we're talking about perhaps a way of 
reorganizing some of the work in our permanent committees to 
deal with this.
    The OSCE is the largest regional organization in the world. 
It has an overwhelming majority of its members who are of like 
mind as to what Russia is doing and that it is dangerous to our 
security, and we need to be better defended and have an 
offensive way to counter their misinformation. We all 
understand--well, at least those of us that have been on the 
Helsinki Commission understand--the bureaucratic challenges of 
the OSCE, particularly Vienna. But we also know about the hope 
within the Parliamentary Assembly that we are able to get 
pretty direct action against perpetrators that are against the 
principles of the Helsinki Final Act.
    So my question is, is there an avenue within the OSCE, 
within the Helsinki Commission, where we can organize countries 
of like mind to more effectively deal with the preparation for 
what Russia is doing, but also how we can have platforms to 
counter that misinformation. I appreciate, Mr. Lansing, what 
you're doing, but I would think that it would be more helpful 
if we also had the input and cooperation of more and more 
countries that recognize the danger of this disinformation 
campaign. How could we more effectively utilize the U.S. 
Helsinki Commission and the OSCE?
    Mr. Lansing. We would be very open to working with our 
friends and allies in this. We do have an organization called 
the DG7, which brings together the state broadcasters of many 
of our allies--Japan, Australia, Germany, France, the U.K.--and 
we meet once annually to compare research and goals and see how 
we can help one another in various parts of the world. But I 
think that type of approach is something that we'd be very 
favorable towards.
    Mr. Cardin. Any other suggestions on how we can get other 
countries working with us more effectively to recognize the 
threat--and the intelligence information is there. They know 
what's going on. But what I have not seen, is a coordinated 
effort among countries to affirmatively defend ourselves and to 
counter what Russia is doing.
    Ms. McKew. I would agree with you on that, and I think that 
the OSCE can potentially play a role. Sometimes the issue tends 
to be that the Russians can mess up what is happening within 
the OSCE, but if there is the ability to build a like-minded 
group, particularly one that can bring together the people we 
think of as donors in this space--the U.S., the U.K., Swedes, 
others who have been forthcoming with resources to fight 
Russian disinformation in a variety of projects--with the 
countries that are sort of frontline partners who don't really 
have the resources to contribute to this fight but they have 
the expertise and the experience and the manpower and the 
history to understand what is happening in more clear ways, 
that could be extremely useful. I think that would be a very 
useful effort.
    Ms. Hooper. Can I just echo? I know that Dunja Mijatovic, 
who was the former special representative on freedom of the 
media in the OSCE, did put out a paper on combatting 
disinformation and was pulling together groups of journalists, 
for example, to develop strategies and talk about strategies 
within the OSCE space, and I think that's pulling on what Ms. 
McKew noted, that there's a lot of expertise in the OSCE among 
countries that had been affected by Russian disinformation in 
various ways that are on the frontlines. But you'll note that, 
then, Ms. Mijatovic's term was cut short because there were 
political reasons that the Russian Government was involved in 
trying to cut short her term. So I think that there is of 
course that risk, but there is the opportunity as well because 
there are many like-minded countries within the OSCE.
    Mr. Cardin. Well, a consensus organization is always 
restricted as to taking formal action, but the OSCE has a long 
history on freedom of the press and opportunities, and where we 
can use that in human rights, where we can showcase what's 
going on as far as misinformation. I would just urge us to use 
those opportunities.
    I mentioned the human rights meeting that takes place 
annually in Poland. We'll have our winter meetings in Vienna, 
of the Parliamentary Assembly. Our annual meeting in July is in 
Berlin. There are opportunities for sidebar meetings. There are 
opportunities for action. The Parliamentary Assembly works by 
majority--it's more democratic than how Vienna works--we could 
get some things and we could put a spotlight on what's going on 
and we could have a forum to recognize that we must be more 
effective in sharing strategies to defend against Russian 
disinformation. I just think there are ways that we can do 
this, and I think you all can be very helpful to us in putting 
that together.
    Mr. Lansing. Senator Cardin, I think that's a really 
terrific suggestion. We're actually hosting the DG7 meetings 
here in Washington in December. That will include the French, 
the British, the Germans, the Dutch, Japanese, Australian, and 
we'll put this on the agenda for that meeting.
    Mr. Gardner. Thank you, Senator Cardin.
    Senator Whitehouse.

 HON. SHELDON WHITEHOUSE, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Whitehouse. Thank you, Chairman. And thank you to all 
the witnesses.
    Just to be clear, is everybody in agreement that the 
Russians interfered in the last election?
    Mr. Lansing. Yes.
    Mr. Whitehouse. Yes, yes. Three for three. OK. Are all of 
you familiar with the publication ``The Kremlin Playbook,'' and 
the publication ``The Kremlin's Trojan Horses,'' by CSIS and 
the Atlantic Council, respectively? Yes, yes, yes?
    Mr. Lansing. I am not.
    Mr. Whitehouse. You're not. OK. Are the two of you that are 
familiar with those two publications, what's your opinion of 
them? Are they reliable, complete, trustworthy? Do you agree 
generally with the findings that they made?
    Ms. Hooper. Yes, I think that they lay out a large number 
of the strategies that we've referenced today that Russia is 
using throughout Europe, also in the United States.
    Mr. Whitehouse. Ms. McKew?
    Ms. McKew. I would agree with that. I think they do show 
partial strategies very effectively. I think the Kremlin has a 
wide range of tools that they use. And I think one of the 
narratives that we don't pay enough attention to, and in 
particular in the political parties that the Kremlin is sort of 
cultivating relationships within Europe and elsewhere, it's no 
longer the Marine Le Pen model as much as it is the ``soft on 
Russia'' model. And I think we need to be far more aware of 
this.
    You especially see it on social media, the sort of middle 
rank of sort of Western journalists hanging out in Moscow, and 
others who propagate this narrative of, OK, Russia is bad, but 
America is worse, and America should know better, so it is much 
worse. And anything you do to respond to Putin means you're a 
Russophobe and it just makes them stronger and proves his 
point. This is very effective in integrating its way into the 
American media environment, particularly in graduate students, 
it turns out, and we just need to be aware of that and be very 
aware that what they're cultivating now is not pro-Russian 
views as much as, ``don't look over here, don't look at the man 
behind the curtain.''
    Mr. Whitehouse. So as we try to prepare ourselves to defend 
against Russian interference in the 2018 and 2020 elections, 
I'd like you to comment on two potential vectors for Russian 
interference. One is the ability of people who seek to 
influence elections to spend money--indeed, very significant 
amounts of money--in American elections without attribution, 
while remaining anonymous. Presumably, we all agree that that's 
not a good thing in terms of defending against foreign 
interference in American elections. How serious a vulnerability 
is it, on a scale of 1 to 10? Let me just go down the row.
    Ms. Hooper. I think that is a serious vulnerability. There 
might be something that may be more serious, so I'll give 
myself a little bit of room and say eight or nine.
    Mr. Whitehouse. OK. But very serious?
    Ms. Hooper. But yes, quite serious.
    Because that is precisely how you see Russian funding going 
to far-right and far-left disruptive parties throughout Europe. 
I can speculate to other places, but I know that there is quite 
a bit of funding in Europe. You have gatherings of disruptive 
parties going to St. Petersburg to meet. It's Russian money 
that is making this happen. And so I think that we need to 
guard against that here.
    Mr. Whitehouse. Mr. Lansing, you don't need to give a 
number. Perhaps that was asking too much. But slightly, very, 
extremely? How serious is that as a vulnerability?
    Mr. Lansing. Having been in the media business for four 
decades, it's clear that money is what drives results on any 
platform, so I'd say extremely.
    Mr. Whitehouse. Ms. McKew?
    Ms. McKew. And I would agree with that. Just briefly, the 
new ideology of export from the Kremlin is kleptocracy, and 
money is the means of recruitment. It is the means of influence 
and infiltration. We're not paying enough attention to that. 
I'm pretty hardline about this, but there is very little money 
coming from Russia that is clean or not connected to Kremlin 
interests and motivations, and we need to be far more aware of 
how that works in our societies.
    Mr. Whitehouse. One of the things that is happening around 
the world--and this will be the second part of my question--is 
that companies are cleaning up the corporate transparency 
problem. Unfortunately, that leaves the United States of 
America in very bad company of misbehaving countries who have 
not cleaned up corporate transparency.
    And in that light, could you comment on the nature of shell 
corporations that you can't see who is truly behind as a danger 
or a vulnerability in our elections to Russian influence? Same 
question as the last one, but instead of unattributed money 
this is corporations who you don't know who is behind the 
shell.
    Ms. Hooper. I am grateful that you mentioned that because I 
think that is an area where the U.S. has allowed Russian money, 
allowed other types of corrupt kleptocratic funds to come into 
the U.S. And this not only harms our own system, it harms our 
reputation as we try to portray our values as democratic values 
overseas. I think that that is precisely where the U.S. needs 
to be putting attention when it is thinking about things like 
Russian disinformation and Russian influence.
    How are our laws allowing this to happen? Shell 
corporations is definitely one area where I think that there's 
a great vulnerability.
    Mr. Whitehouse. Mr. Lansing, agree or disagree?
    Mr. Lansing. I agree with Ms. Hooper and have nothing to 
add.
    Mr. Whitehouse. Ms. McKew?
    Ms. McKew. The anonymous movement of money through various 
financial systems is an extreme challenge to us. And I think in 
particular looking at the United States, the movement of 
Russian money into our system is not about buying real estate 
and yachts. It's about buying us. And we need to be very clear 
about that.
    Mr. Whitehouse. Final question--and this takes, Ms. Hooper, 
your point. Let me posit a hypothesis--and it's obviously going 
to be not accurate specifically--but posit that there is a 
corrupt world in which Russia is a very prominent player, 
basically a criminal enterprise that happens to also enjoy 
nativist sentiment and nuclear weapons, and has occupied a 
country, and on the other side, ``rule-of-law land.'' So if you 
generally were to divide the world between ``corrupt land'' and 
``rule-of-law land,'' what are the ways in which ``rule-of-law 
land'' is actually facilitating corruption and kleptocracy in 
``corrupt land?'' And how important is it for us to try to 
clean that up? And is that a sensible way to be thinking about 
this international rivalry, or contest?
    Ms. Hooper, you first.
    Ms. Hooper. Yes, it is a sensible way. As was mentioned 
earlier, I think corruption and the flow of Russian corrupt 
money is the main way that Russian influence leaks into other 
countries, and that is through buying individuals, buying 
corporations, buying property. Here, it's also through sending 
children to universities, or allowing corrupt officials to 
vacation in the United States, sometimes. There are so many 
ways that we see corrupt money flowing freely.
    Mr. Whitehouse. Is there an incentive for people who've 
stolen a lot of money in ``corrupt land'' to move their money 
into ``rule-of-law land'' so that they're not in turn robbed by 
the next bigger thief?
    Ms. Hooper. Yes, of course, because there are rules to 
protect it.
    Mr. Whitehouse. That's how they protect themselves from 
being robbed by the next bigger thief in ``corrupt land,'' 
correct?
    Ms. Hooper. Yes, that's right. And I believe that a recent 
statistic said that more than half of Russian corrupt money is 
not in Russia.
    Mr. Whitehouse. And what role do American law firms, 
accounting firms, advisers, and other entities play in 
facilitating that?
    Ms. Hooper. Law firms, accounting firms, lobbying firms are 
all advising kleptocrats on how best to take advantage of the 
rule-of-law system we have here.
    Mr. Whitehouse. OK. I think my time is probably expired, 
but I appreciate the witnesses being here and I appreciate the 
theme of this hearing. Very well done.
    Thank you.
    Mr. Gardner. Thanks, Senator Whitehouse.
    Ms. McKew, you had experience with people who witnessed 
this firsthand. It was about them. They went through it. Could 
you talk about some of the effects it had on the thought 
process of individuals that said this misinformation was aimed 
at in Georgia and other places that you've had experience in--
what it was like to go through that, the pressures it created, 
how they dealt with it, and the experiences that you glean from 
that that we should learn from?
    Ms. McKew. It's a really interesting question, and I think 
it gets back to this point that it's very difficult for 
disinformation, but in particular Russian operations, to create 
new divides or a new part of the landscape, but it's very easy 
for them to exacerbate and exploit what's already there. And in 
Georgia in 2012, that space was very much the halted reforms in 
the justice sector, the concerns about what was happening in 
the expansion of rule of law in the country, and that was the 
sort of wiggle room to get into in terms of creating this black 
PR narrative of the ``bloody nine years of the rule of 
Saakashvili,'' which I think most people would disagree is 
truth. Certainly, there were issues with the Saakashvili 
government, but ``bloody nine years'' is not a valid 
representation of what happened during that time when 
significant things transformed toward democracy in the country.
    But it was this targeting. The government didn't know any 
of this was happening. Anybody who on Facebook or other social 
media had sort of liked anything from that side would be 
excluded from the operations that were going on. So there was 
this very divided view of the country that evolved over the 
year when these operations were applied. Toward the end, when 
you had not just a narrative of what way do we want the country 
to go, what didn't you like, are you disadvantaged compared to 
others, but the things right before the election, the supposed 
prison rape tapes that were put out, and the night of the 
election when there was this fake story, which was much later 
debunked, about this dead baby that had been found in a well 
that they claimed the government or the ruling party had 
killed--but all of this was playing out in real time across the 
information network that had been built by Bidzina Ivanishvili, 
whose money is Russian, and very much backed by Russian 
information enterprises.
    And I think that the effect this had on people--on 
Georgians in particular, who after the war in 2008, there was 
this sense of the existential threat in the country. And it's 
exhausting. It's exhausting for any country to have to think 
all the time about invasion, turmoil, takeover. And all of this 
sort of exploited that sense of, ``wouldn't it be great if 
things could just be normal again,'' but it created this 
environment of fear and the potential for violence that really 
suppressed part of the vote, and elevated another part of the 
vote in ways that I think really shifted the outcome of what 
that election was. And I think that's fairly easy to pull out.
    In Moldova, it's a little bit different. It's a very 
divided country, the Russian-speaking part versus the Romanian-
speaking part. But it is such a terrible information 
environment, where four or five national channels are 
controlled by the oligarch who controls the country, who is 
nominally pro-European, but his channels are the ones that 
promote all the pro-Russian propaganda in the country. The 
courts that he controls are the ones that have laundered the 
$40 billion of Russian money through Moldova into the EU. 
Within that environment, the way that they control the country 
is through division, through saying you have no choice but 
maintaining these divisions, or the Russian-speaking population 
would be disadvantaged anywhere else, the Romanian-speaking 
population would be disadvantaged with any other thing going 
on. And it's this constant churn that is used to control what 
people think their options are, and that's why everybody's 
leaving the country. But that constant maintenance of these 
narratives is very difficult, it's all about information, and 
it's information used to mobilize people in specific ways.
    Mr. Gardner. But when you look around the globe and you 
look at Europe, you look at Germany, look at France, the United 
States, our efforts, is somebody doing this better than we are? 
Is somebody getting it right? Is there more policy in place 
somewhere that's having a better effect than we are? France, 
during their election, was able to fight back a little bit. Can 
you explain how--and let me hear from all three of you.
    Ms. McKew. I think that there are countries that watch and 
assess this problem better than we do. But in terms of 
response, I'm not sure that anybody really has anything yet, 
other than happenstance. I think part of what happened in the 
French election, there's sort of a cultural resilience to 
slander and scandal that we don't have as Americans.
    There's a big language issue. The way the Russians talk 
about this constantly is the ``linguistic hegemony of 
English,'' which is the thing they're trying to break with RT 
and Sputnik. But they're not wrong about that, which is English 
is the language of the internet. So when they do these 
operations, in terms of the information space, in English, we 
are the echo chamber they're pointing at, and everything just 
kind of bounces around. They don't do that much in French. 
There's not as much effort applied. Same in German, although 
mostly what their avenue of disruption is right now is they're 
targeting the Russian population, the Russian-descended 
population within Germany, and then other things. But it works 
better in English, and that is why I think you've seen the 
results that are Russian connected on Brexit, on the American 
election, where there just feels like there's more going on 
that we haven't seen.
    Ms. Hooper. I wanted to add a quick point. I think that 
both France and Germany have done better in one respect: French 
media was able to agree that they would not cover the hacked 
information that was released. And so the media there agreed 
not to do that, and I think that that was a significant step 
there. In Germany, you have Angela Merkel meeting with experts 
on disinformation right after the U.S. election, saying what is 
this, what do we do with it, and then there's a coordinated 
government-wide task force that has developed contingency plans 
around this election. If there's a drop of disinformation on a 
campaign that occurs, what do we do, how are we going to 
respond? They all know. And there's even a secondary voting 
computerized system that's been set up in case their primary 
computerized system is attacked. There are contingency plans. 
In addition to informing the public this might happen, they're 
specifically informing themselves and taking action.
    Mr. Gardner. And I thank you for that.
    Senator Shaheen.
    Mrs. Shaheen. Yes, I'll do a third round with you.
    Mr. Gardner. Thank you. [Laughter.]
    Mrs. Shaheen. Lest someone think that Americans are immune 
to this kind of disinformation, I can tell you that in the 
public forums that I have done in New Hampshire, I have had in 
each one someone speak up with the exact Russian narrative on 
the issue that's being raised, whether it's Syria, whether it's 
the elections, whatever it is. And most of the people who have 
done that have been people who have been educated. They have 
been people who you think, gee, they ought to be able to 
recognize the difference. So the question of media literacy is 
the one that I really wanted to get at. What responsibility 
does the media here have to point out, as opposed to just 
repeating some of these narratives, and what more can we do to 
address that issue so that there's--among responsible media in 
the country, an effort to really take a look at this?
    That's you, Ms. Hooper.
    Ms. Hooper. I don't want to say that the media is the 
problem, because I believe that media in the U.S. is really a 
symbol of who we are and what we are, and the fact that----
    Mrs. Shaheen. I agree, and I'm not suggesting that the 
media's the problem.
    Ms. Hooper. I understand. But I agree with you that there 
seems to be a tendency in the U.S. for us to go to the shiny 
object, and that includes with our media. And sometimes the 
shiny object is something that has nothing to do with substance 
or with facts. I do feel like media has a responsibility, and a 
raising of that issue and a highlighting of the ethics 
responsibility of journalists and of media, I think, would be 
helpful and important for us now.
    Mrs. Shaheen. Mr. Lansing, as someone who's come out of 
that world?
    Mr. Lansing. Yes, not speaking as the BBG CEO but just in 
my experience having been a journalist myself and a news 
director, I thought it--first of all, I take your point very 
much, and I thought it was interesting to watch the evolution 
of the coverage last year. When you'd be watching one of the 
cable television networks and you'd hear something said that 
was empirically untrue, and the moderator would just let it go 
right by. And then after a while--and I think CNN was a leader 
in this, and the others came along--you saw them becoming a 
little more aggressive to call something out as being untrue, 
or even to say that's empirically false. So I think it took the 
media a little bit of time to catch up with what was a blast of 
disinformation that seemed to come out of nowhere.
    And to your point, I think the media has a responsibility 
in the best tradition of media to offer perspective and 
context. And part of perspective and context is helping an 
audience understand, or a media consumer understand, how to be 
a smart consumer of media. And I think more could be done to do 
that.
    Mrs. Shaheen. So how do we encourage that among the media? 
One of the examples that I use that I'm sure you all heard was 
the story on social media that got picked up by Fox News and 
repeated and then got repeated by the President, and then 
finally they had to debunk it and say, oh, no, that was a 
Russian-planted story. But how do we get the media to police 
itself on these issues?
    Ms. McKew?
    Ms. McKew. It's an interesting question, and I think part 
of this gets back to the post-2016 election in particular. Now 
everyone is a Russia expert. And people commenting on Russia 
and the purpose of Russian information operations on the news 
are often the person who just commented on whether or not the 
next Supreme Court justice is going to be good for the country. 
And I have no commentary on the next Supreme Court justice, but 
I do think that we need to be careful about how we are applying 
expertise in media, absolutely.
    But part of it is raising awareness of this narrative 
issue. What is the Russian narrative here trying to achieve? 
How does it do that? How does it work? And part of it is 
building awareness in the commentariat but also in journalists 
about those things. I have had more than one argument in the 
past two years with good friends of mine who are good, 
extremely good aggressive credible journalists who have written 
a story that is clearly Russian disinformation. And if you poke 
at them and say, what is this story that is demonizing Ukraine, 
amplifying some bit of Russian narrative from the Middle East, 
whatever it is, and you can finally get back to whatever the 
source was, it's just, ``it seemed like a good story, so we're 
going to write it.''
    But the Russians are very sophisticated about how they get 
information in front of us. They use proxies, they use 
secondhand people, they use pass throughs, they use people 
who've been in the United States for a long time. The outreach 
to journalists and to others, to think tank experts, to 
academics in particular is a long-term effort. They're very 
good at introducing information into our systems, in 
journalism, in intelligence in other countries, and we need to 
be more aware of how that information moves and what it aims to 
achieve.
    I think there's also another piece of this in the media 
space, particularly on social media which is sort of algorithm 
based, and the financial models of these companies is, on 
basically creating an infinite confirmation bias system. I had 
this amazing conversation with a Facebook guy a couple years 
ago when he was lamenting that he doesn't understand Washington 
or how divided our information spaces have become. Why do we 
think this is so bad? And I looked at him and said, maybe 
because everybody's reality is curated for them on Facebook. 
And it had never occurred to him that this was a problem at 
all. The model where social media decides you want to see this, 
so we're going to show it to you--if you and I searched 
something on Google right now too, we would get totally 
different results sitting 10 feet apart in the same room. This 
needs to be something we're looking at, because it's giving us 
inaccurate views of the world as a means of selling things 
sometimes, but it's not helping us in terms of building sort of 
cognitive resistance against disinformation.
    Mrs. Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Mr. Gardner. Senator Whitehouse, if you care.
    Mr. Whitehouse. Thank you, Chairman.
    Ms. McKew, I left off with a question to Ms. Hooper about 
the role of U.S. lawyers and accountants and lobbyists and 
advisers and banks in facilitating the protection of resources 
stolen in ``corrupt land'' so that they can find sanctuary in 
the safety of ``rule-of-law land.'' And I'd like to have you 
comment on the same question, if you recall that.
    Ms. McKew. Yes, absolutely. I think the point you hit on is 
the right one, which is it's the exploitation of our system 
that is the thing the Russians are really great at in many 
regards, particularly in finance. I think the initial way--the 
first round of accountants and others who became engaged in 
this are the same guys who are laundering money for people 
getting divorced and, you know, it's the normal movement of--or 
hiding of--corporate assets, hiding of personal assets that 
regular non-kleptocratic individuals and companies engage in. 
That is the infrastructure into which kleptocratic money is 
moving in Russia and other places.
    Mr. Whitehouse. And that's in part because if you leave the 
money in ``corrupt land,'' the next bigger thief can steal it.
    Ms. McKew. It's totally vulnerable, absolutely. And you 
can't use it.
    Mr. Whitehouse. And you can't use it.
    Ms. McKew. It's not good for anything. You have to get into 
legitimate banking systems, yes.
    Mr. Whitehouse. So you've got to move it over.
    Ms. McKew. Yes.
    Mr. Whitehouse. And in that sense, how important is that 
network of ``rule-of-law land'' support entities--the lawyers, 
the bankers, the accountants--in actually making the corruption 
in ``corrupt land'' pay off for the people who engage in it?
    Ms. McKew. They are allowing corruption to be profitable 
and allowing it to bleed into our systems in ways that we are 
not aware of.
    Mr. Whitehouse. And the final question on this takes us 
back to a point that presidents have made about our country, 
that we are a little bit different than other countries. We are 
an exemplary nation that, as one said, the power of our example 
has always mattered more than any example of our power. And 
from Jonathan Winthrop to Ronald Reagan, we have talked about 
the United States of America as being a city on a hill. And in 
our national hymn we talk about that alabaster city is supposed 
to gleam. So what are the costs? A, do we get value in this 
world, in your view, out of being that exemplary nation? And, 
B, what is the effect on that value of allowing ourselves to 
become the functionaries of kleptocrats in ``corrupt land?''
    Ms. Hooper?
    Ms. Hooper. Yes, there is value. I can tell you, having 
worked for years overseas, in Russia, in Central Asia, in the 
Caucasus, everywhere I work, even when I express concern about 
our criminal justice system or something that's happening in 
the United States, my colleagues would tell me no, your system 
works, but, no, we are looking to your system. This is what 
I've heard everywhere. So, yes, there is of course value in 
this.
    Mr. Whitehouse. Ms. McKew.
    Ms. McKew. Of course I would agree that there is tremendous 
benefit to the ``city on the hill'' remaining the city on the 
hill. I think that the construction of the post-World War II 
architecture, in terms of security and economic integration 
with Europe, the transatlantic alliance is what has made us an 
enormously prosperous, secure and influential nation in the 
world. So the idea that this is not something we benefit from 
is----
    Mr. Whitehouse. It's not just that we have more rockets and 
missiles than other people. The power of our example matters.
    Ms. McKew. The power of our example is enormously 
important. And if you ask any of our allies, especially the 
newly freed states from the post-Soviet space, they still don't 
get why we don't understand this and why we're not fighting for 
it in the way that they did and that they have.
    Mr. Whitehouse. In the battle of ideas and ideologies that 
make up our world, how does that power of our example fare when 
we are engaged in systematic support for the kleptocrats of 
corrupt land?
    Ms. McKew. I think one of the arguments I've tried to make 
the most in the past year in particular, but also before, is 
the ways in which Russian money influences us. I'm sure other 
countries have the same issues. But it's not always----
    Mr. Whitehouse. I mean, my question is in terms of 
reputation.
    Ms. McKew. Yes, absolutely. But it's not always--it's the 
way in which we silence ourselves to keep the flow of money 
open. At a conference in Tallinn earlier this year, there was a 
great panel of European bureaucrats talking about the problems 
of Russian blah blah and I asked them: if we know this is what 
the money is achieving in our systems, in our politics, in our 
media, et cetera, why don't we do anything about it? And the 
answer was, ``We're all making too much money and nobody's 
going to take the hit.''
    We see the impact that this has had in the U.K. in 
particular. In London, there's a huge bastion of keeping 
illicit Russian funds in place, and in other places as well. 
You see in Europe the ease with which politicians move straight 
from politics into Russian business. We should not believe that 
there is any less influence with Russian money in Washington. 
The number of advisers around political campaigns, around 
political parties in general who are taking Russian money, 
representing Russian interests--and even if they're not 
advocating for Putin, they're not going to say anything 
critical because they want to keep getting that check--is an 
enormous problem, and one I find very disheartening. There is a 
lot of Russian money, and the way that it works here and 
influences Washington in particular is something we don't pay 
attention to very much.
    Mr. Whitehouse. Thank you, Chairman.
    Mr. Gardner. Thank you, Senator Whitehouse.
    The Zapad exercises are starting in Belarus today. A 
hundred thousand Russian troops, it's estimated, will be in 
Belarus as a part of this exercise. Are you seeing anything, 
hearing anything in regards to disinformation surrounding this, 
and what have you seen, and how is it being countered?
    Ms. McKew. I think, from the Russian side, they're doing 
their usual ``it shows our tremendous military might, and yet 
it's a nothing-burger, don't pay any attention to what's going 
on over here'' routine. They claim it's far smaller, 13,000 
troops.
    Mr. Gardner. And it is a hundred thousand or--yeah, right.
    Ms. McKew. For our Baltic allies, it's an enormous 
mobilization with a tremendous amount of forward-deployed 
equipment moving into Belarus in advance of the exercises, all 
of which was documented by rail schedules. In particular, 
there's a lot of anxiety about what this means. In the U.S. 
operational mindset, we have this challenge of divided 
geographic commands. If you're sitting in Moscow and looking 
out, the Baltics, Ukraine, the Middle East, and North Korea are 
kind of all in the same ring of operation. There's a lot of 
anxiety that as tensions in North Korea escalate, that creates 
more opportunity for Russia to move in the West if they decide 
to try to test NATO or challenge other security infrastructure. 
This year feels different. There's real anxiety about what's 
happening in terms of whether this just means that Russian 
equipment is never moving back out of Belarus, like maybe the 
men leave but the stuff stays.
    Maybe they move some of it to Kaliningrad. Nobody's really 
sure. But it definitely has more of that pre-2008, pre-2013 
sentiment than not, I would say.
    Mr. Gardner. One of you talked a little bit about education 
and being taught what to look out for. Journalism school, 
reporters, you're looking at this kind of a campaign out of 
Russia. Is this taught in class? Is this something that you can 
teach? How do we provide this education? Is this something that 
needs to happen as part of professional development going 
forward? How does this work?
    Mr. Lansing. I'm privileged to be on the National Advisory 
Board for The George Washington University School of Media and 
Public Affairs, and their leader, Frank Sesno, immediately, 
within a week after the election last year, started conducting 
forums that brought all the students together with people like 
Sean Spicer and others that were heavily involved, and there 
were really rich and deep conversations going on at the GW 
campus about what happened and how to think about journalism 
after the 2016 election. So I'm seeing, at least at GW--and I'm 
sure they're not alone--a push in academia, in terms of 
journalism schools, to make sure there are lessons learned, 
particularly just going back to the point of the context that's 
missing, to Senator Shaheen's point, about understanding how to 
be a better consumer of news, and also how to be a better 
journalist to help people be a better consumer of news.
    Mr. Gardner. Yes, and by then, though, the vast number of 
consumers of that information are going through college and 
they're not receiving that in class. So they've gone through 
high school, how do we make sure that we have critical reading, 
critical thinking skills that are appropriate in this new world 
of 24-hour/7-day-a-week access to information, so that we are 
making sure that people need to question what they read, and 
make sure they know where the information is coming from and 
make their opinions on their own and have not somebody else's 
being fed to them?
    Mr. Lansing. Completely agree that it would need to expand 
beyond just the journalism schools and really just anyone who's 
going to be a consumer of media needs to have a more astute 
method for understanding what they're hearing or seeing or 
reading, and where it's coming from.
    Mr. Gardner. Senator Shaheen.
    Mrs. Shaheen. Thank you.
    Well, I would argue that media should include social media 
as well.
    Mr. Lansing. I agree.
    Mrs. Shaheen. Because one of the reasons that we're in this 
place is because we have this whole new technology that's 
social media.
    Mr. Lansing. Yes.
    Mrs. Shaheen. I want to go back--Ms. Hooper, you talked 
about Russian support for right-wing organizations in Germany, 
and you all referenced their support for parties, different 
political parties, right-wing. Do we have any evidence that 
Russia has supported right-wing groups in the United States, 
and white supremacist groups, neo-Nazi groups here?
    Ms. Hooper. I don't have any evidence. There is a 
researcher, Casey Michel, who focuses primarily on this issue. 
Russia has gathered separatist groups--for example, California 
separatists, Texas separatists--and there is evidence that the 
websites of California separatists and Texas separatists are 
supported by Russian institutions. But for general political 
parties, I can't say that I have evidence. You have a lot of 
similar argumentation, but, again, I want to make evidence-
based arguments, and I don't have evidence for that.
    Mrs. Shaheen. Sure, yeah--no, that's what I'm asking.
    Ms. McKew, have you seen anything?
    Ms. McKew. Yes, is the answer. And, you know, it's not that 
anybody can prove financial connections or anything else, but 
in terms of rhetoric and overlap of operations, there's a lot 
of integration between the Russian information architecture in 
some of these actors who have been represented on Russian state 
media.
    Russia hosts a lot of conferences. Some are these 
separatist groups in which the Texas, Alaska and California 
separatist movements have attended in the past, in Crimea and 
other exciting places. But on the idea of the white supremacist 
groups, ultranationalist groups, the traditional values groups, 
Russia's been very aggressive in cultivating relationships with 
these groups--sometimes in very tactical ways that disagree 
with other pieces of their narrative that we think are 
important. But in the U.S. far-right in particular, if you go 
down the list of the groups that were active in 
Charlottesville, they've all attended Russian conferences or 
been connected to Russian information architecture or received 
amplification from the Russian networks. I think that really 
points to a subject of interest from the Russian side that we 
need to be aware of. I and several of my colleagues, including 
Jim Ludes from Salve Regina University, were writing on Twitter 
about this after Charlottesville, and the bot attacks in 
response from both the Russian-crafted Bernie bots and the 
Russian-crafted far-right bots were intense and aggressive. So 
this is clearly something they don't really want discussed.
    Mrs. Shaheen. Mr. Lansing, you talked about, in response to 
Congressman Smith's question about RT and Sputnik and efforts 
to address what they're doing in terms of presenting Russian 
propaganda, that you were concerned about retaliation. Do you 
believe that those two outlets are directly supported from 
Moscow, from Putin's government?
    Mr. Lansing. Yes, I do.
    Mrs. Shaheen. Do you, Ms. Hooper? Do you, Ms. McKew? [No 
audible response.]
    And I have legislation that I introduced back earlier this 
year which would modernize our Foreign Agents Registration Act 
in a way that would give some teeth to the Justice Department, 
because it seems to me that they are dramatically exploiting a 
loophole. I would agree that under our system, they should be 
allowed to broadcast, but people need to understand what 
they're watching and that--because they claim that they are not 
directly connected to Putin's government and Moscow--Americans 
really are not as aware as we should be of what they represent. 
So that's really more of a statement than a question, but would 
you all support providing more teeth to FARA to allow us to 
close that 
loophole?
    Ms. McKew. As you know, Senator, I have been a foreign 
agent for different causes in the past, ones that I was happy 
to represent and fully disclosed and registered every contact 
and meeting and email to your office and others.
    I do believe that right now FARA is basically voluntary. It 
was four, and now I think six, guys in one office. That's a 
good expansion. But there's a lot of belief that there are 
loopholes--there are really not--but it is not enforceable in 
its current form. There are some loopholes in the sense that 
think tanks aren't covered. There is foreign money that is 
being used to influence the Hill as well. That should be 
covered. There are lawyers who are happy to interpret for you 
how FARA does not apply. I do not have that lawyer, obviously, 
but others are happy to find them. And I think that, for that 
reason, the Justice Department needs to be clear about what the 
law actually says.
    I think one particular point that needs to be more 
explicitly detailed--and I've had this conversation with many 
of my friends leaving government who I think have gotten the 
``don't worry, FARA doesn't apply to you'' speech from others--
if you read the statute the way I believe it was intended, if 
you are providing advice to a foreign government, political 
entity, state enterprise, et cetera on how to influence U.S. 
policy, even if you yourself are not making phone calls, 
sending emails, representing them actively in Congress or in 
the administration, you have to register. Many people don't. 
They sort of use this adviser label, claiming they have no 
responsibility. That, I think, really needs to be clarified and 
closed, because it's the space in which many people try to 
remain clean by not registering, but it is giving tremendous 
tools of influence to people who are willing to pay, because 
obviously most foreign interests are always going to encourage 
you not to register because, you know, who wants transparency?
    Mrs. Shaheen. Sure, right.
    Ms. McKew. But the transparency point on RT and Sputnik, I 
think, is the right one. We do need to be careful about freedom 
of speech and information.
    Mrs. Shaheen. Right.
    Ms. McKew. However, there should be disclaimers on the 
purpose of what this is.
    Mrs. Shaheen. Absolutely. Do either of you want to comment?
    Mr. Lansing. Sure. I will comment, Senator Shaheen. I'm not 
an expert on FARA. As a citizen, I would support the idea of 
strengthening FARA. As the CEO of the BBG, I would just make 
sure that you understand that there could be some reciprocal 
outcomes, depending on what happens as we strengthen FARA as it 
relates to Sputnik and RT.
    Mrs. Shaheen. Sure.
    Mr. Lansing. But that's just information for you to know.
    And the last point I would make is the expression of what 
the networks of the BBG do around the world--Voice of America, 
Radio Free Europe--is really an expression of the value of free 
speech. And so I would put that into the mix as well, those two 
components, as you consider how to move forward.
    Mrs. Shaheen. Well, thank you. I'm well aware of what the 
potential ramifications are. I've already been compared to 
McCarthy, my actions to McCarthyism. So----
    Mr. Lansing. Hardly.
    Mrs. Shaheen. Ms. Hooper.
    Ms. Hooper. I wanted to echo Mr. Lansing's concerns, that I 
know you're fully aware of. I think that it's important to 
perhaps not become too distracted by just RT and Sputnik.
    Mrs. Shaheen. Absolutely.
    Ms. Hooper. I think in two ways, both in making FARA 
stronger, think about application across the board, what this 
is going to look like, and then in another way looking fully at 
other methods of influence and other influences on our media 
that is not just RT and Sputnik.
    Mrs. Shaheen. Thank you. Well said.
    Thank you, Mr. Chairman. And thank you very much for a 
really very informative and important hearing.
    Mr. Gardner. Thank you, Senator Shaheen.
    And thanks to all of our colleagues on the Commission, the 
Helsinki Commission, who participated in today's hearing.
    Thanks to the witnesses for your testimony, and I'm sure 
there will be follow up from a number of us on the Commission 
and with the Commission, work for additional questions, and I 
would ask you to respond as quickly as possible to anything on 
that front. But more than anything, grateful thanks to the 
Commission. And to everyone who participated in the hearing, 
thank you for attending. Thank you for listening online. I 
truly appreciate the participation.
    And with that, this Helsinki Commission hearing is 
adjourned.
    [Whereupon, at 11:31 a.m., the hearing ended.]

                          A P P E N D I C E S

=======================================================================


                          Prepared Statements

                              ----------                              


 Prepared Statement of Hon. Cory Gardner, Commissioner, Commission on 
                   Security and Cooperation in Europe

    This hearing of the Helsinki Commission will come to order. 
Welcome, and good morning to everyone. I am honored to speak on 
behalf of Senator Wicker, the Commission's Chairman, and to 
preside over this hearing.
    The Commission is mandated to monitor the compliance of 
participating states with consensus-based commitments of the 
OSCE. Today's hearing focuses on the pressing issue of Russian 
disinformation and how it undermines the security and human 
rights of people in the OSCE region.
    Disinformation is an essential part of Russia's hybrid 
warfare against the United States and the liberal world order. 
As one of our distinguished panel witnesses today wrote in her 
recent article: ``The Russian security state defines America as 
the primary adversary. The Russians know they cannot compete 
head-to-head with us--economically, militarily, 
technologically--so they create new battlefields. They are not 
aiming to become stronger than us, but to weaken us until we 
are equivalent.''
    Through its active measures campaign that includes 
aggressive interference in Western elections, Russia aims to 
sow fear, discord, and paralysis that undermines democratic 
institutions and weakens critical Western alliances, such as 
NATO and the EU.
    Russia's ultimate goal is to replace the Western-led world 
order of laws and institutions with an authoritarian-led order 
that recognizes only masters and vassals. Our feeble response 
to Russian aggression in Ukraine and their interference in our 
elections has only emboldened the Kremlin to think that such a 
new world order is not only possible, but imminent.
    We must not let Russian activities go with impunity. We 
must identify and combat them, utilizing every tool in our 
arsenal.
    I am proud that my home state of Colorado is home to Fort 
Carson and the 10th Special Forces Group, an elite unit that 
has been at the tip of the spear in identifying and combating 
some of these malign Russian activities in European frontline 
states. I thank them for their important work, and for keeping 
our nation safe.
    To help us lead our discussion today, I am pleased to 
introduce three distinguished witnesses.
    Mr. John F. Lansing is the Chief Executive Officer and 
Director of the Broadcasting Board of Governors (BBG). He 
joined the BBG as CEO and Director in September 2015. 
Previously he was the President of Scripps Networks, where he 
is credited with guiding the company to become a leading 
developer of unique content across various media platforms.
    Ms. Melissa Hooper is the current Director of Human Rights 
and Civil Society programs at Human Rights First. Ms. Hooper's 
research focuses on Russia's foreign policy strategies of 
spreading Russian influence and undermining democratic 
institutions in Eastern Europe, and how these strategies 
intersect with existing autocratic trends.
    Ms. Molly McKew is an expert on information warfare and 
Russian disinformation policies. She currently heads an 
independent consulting firm, Fianna Strategies, advising 
governments and political parties on foreign policy and 
strategic communications. She has extensive regional 
experience, advising both Georgian and Moldovan governments. 
She also writes extensively on issues pertaining to Russian 
information warfare.
    We will begin with Mr. Lansing who will offer his testimony 
and inform us what the BBG is doing to counter Russian 
disinformation in the OSCE region. We will then move onto to 
Ms. McKew's testimony where she will discuss information 
warfare and Russia's activity in this space. Finally, Ms. 
Hooper will present her analysis of Russian disinformation's 
influence over the German elections and its potential influence 
over future elections in Europe.
    So, thank you to these distinguished members of today's 
expert panel for joining us today, and I look forward to our 
discussion as we strive to better understand this serious 
threat.
    We may now begin with testimony by Mr. Lansing.

Prepared Statement of Hon. Christopher H. Smith, Co-Chaiman, Commission 
                 on Security and Cooperation in Europe

    Thank you, Mr. Chairman, for leading our inquiry into 
Russian disinformation--a serious threat to democracy on both 
sides of the Atlantic
    The most alarming thing about the Russian media's promotion 
of untruths and `fake news' is the extent to which it is 
coordinated by the Russian government, and put in the service 
of a doctrine of war--the so-called ``Gerasimov doctrine'' of 
``hybrid war.''
    ``Fake news'' is far from unknown within our own society. 
We deal with it through freedom of speech, which allows it to 
be disproven, as well as through laws against libel and 
incitement.
    Yet the case is totally different when a foreign government 
coordinates the production of ``fake news'' campaigns as part 
of hybrid war against us and our allies. I'd like to hear from 
our witnesses how they think our government can work with our 
allies to respond to the threat the Russian disinformation war 
poses against Ukraine, Lithuania, Latvia, Estonia, and Georgia. 
These are countries where disinformation is most fully put in 
service of ``hybrid war.''
    How are we responding--and how should we? Most importantly, 
if Russian disinformation is hybrid war against these front-
line allies, is our military and the NATO alliance making 
``counter-disinformation'' part of a ``hybrid defense'' against 
this hybrid war?
    Over the years, I've travelled to Russian many times on 
human rights missions--in the 1982 my first trip as a 
Congressman was to meet with Jewish `refuseniks', in 1987 Frank 
Wolf and I visited Perm Camp 37 right before it closed. In the 
1990s and early 2000s the meetings became friendlier, and I 
developed relationships with Russian legislators. Then came the 
Putin freeze. My last encounter with the Russian government 
came in February 2013. At that time, in response to 
congressional passage of the Magnitsky legislation denying U.S. 
visas to Russian officials responsible for the death of Sergei 
Magnitsky, the Russian government shut off all international 
adoptions to the U.S., including adoptions then already in the 
``pipeline.'' It was a heartless action. It punished Russian 
kids languishing in orphanages, preventing them from being 
united with loving families. Many of these kids had already 
established relationships with the adoptees.
    At that time I requested a visa to travel to Russia to meet 
legislators, hoping to at least keep the adoptions that were 
already in process moving forward. I was an original cosponsor 
of the Magnitsky legislation and my request was denied--a State 
Department official told me that it was the first Russian visa 
denial to a U.S. Congressman in living memory. So I'm afraid 
that, being on a Russian visa-ban list, I don't have any recent 
experience in that country to bring to bear on our 
conversation. But the only other countries that have denied me 
visas are China and Cuba, two of the world's most repressive 
dictatorships. It's not a nice club to be in.
    I look forward to our discussion today of this topic, so 
immediately relevant to the defense of some of our country's 
closest allies.

Prepared Statement of Hon. Benjamin Cardin, Ranking Member, Commission 
                 on Security and Cooperation in Europe

    Senator Gardner, thank you for presiding over this hearing 
today on behalf of Senator Wicker and discussing Russia and 
this most pressing and vital of concerns, Russian 
disinformation.
    I have repeatedly stated that Russia is violating all of 
the Helsinki Final Act's Guiding Principles and now 
disinformation is the Russian State's latest strategy to 
undermine those guiding principles. Senator Gardner, I hope 
that today we can truly improve our understanding of the nature 
of Russian disinformation and the threat that it currently 
poses to the United States and other participating states of 
the OSCE.
    In a world of rapid technological and social change and 
upheaval, Russia has not merely grasped the basic applications 
of new technology, but exploited it to introduce confusion and 
chaos in the media. This has culminated in the creation of the 
Gerasimov Doctrine, by Russian General Valery Gerasimov, which 
is the foundational document on the spread of disinformation 
and about which we will hear more today from one of our 
witnesses, Ms. Molly McKew.
    As my colleague previously stated, we have seen the impact 
of this disinformation at home and abroad. Russian 
disinformation has spread throughout Ukraine, and especially 
impacted the Ukrainian state's response during the invasion of 
Crimea and the War in the Donbas. We have also seen the impact 
of Russian disinformation in the United States itself, with 
Russian Facebook users creating thousands of impersonation 
accounts and sharing pro-Kremlin information to the American 
public online during the 2016 election period.
    This week--as the OSCE convenes Europe's largest annual 
human rights meeting in Warsaw, Poland--a long-time participant 
and leading voice in monitoring hate crimes, xenophobia and 
extremist violence in Russia is under threat. The SOVA Center 
is now being investigated as ``undesirable.'' This is a painful 
reminder that Russia's ``foreign agent law,'' used to target 
human rights groups and civil society in general, is one of 
Moscow's biggest global exports now, along with its 
disinformation.
    I must note that this is the Helsinki Commission's third 
hearing on Russia this year. The Commission has investigated 
the extensive human rights abuses in Russia and the growing 
military threat that the Russian State poses. The scourge of 
disinformation is a serious and ongoing challenge Russia poses 
against the global community, in spite of its international 
treaties and commitments.
    Senator Gardner, I hope that during this hearing we can 
grasp hold of how Russian disinformation threatens the United 
States and its allies; how well the United States is currently 
prepared to tackle this issue; and how capable we are, as a 
nation, to prevent and combat Russian disinformation in the 
future.

Prepared Statement of Hon. Michael C. Burgess, Commissioner, Commission 
                 on Security and Cooperation in Europe

    I want to thank the Chairman and Co-Chairman of the 
Helsinki Commission for convening this hearing today on such a 
timely and crucial topic.
    Information warfare is the use of information, whether 
factual or false, to influence opinions, disrupt lines of 
communication, and undermine the values of a target for 
political advantage. This is exactly the behavior promulgated 
by the Russian government and its proxies during the 2016 
Presidential election. Our intelligence community assessed that 
Vladimir Putin ordered an influence campaign aimed at the 
election in order to undermine faith in the democratic process 
by conducting covert intelligence operations and overtly 
disseminate false information.
    Russia's attempt to influence our election was not the only 
goal; Russia is conducting a long-term campaign to undermine 
the U.S.-led liberal democratic order. Previously, Russia 
conducted campaigns against Estonia, Georgia, and Ukraine. In 
addition to disinformation efforts in the U.S., Russia is 
aiming to disrupt the European Union and sow distrust of NATO 
to accelerate its dissolution.
    Today, Russia begins a weeklong series of military drills 
known as Zapad, or West, with Belarus that will place thousands 
of troops along the border with the Baltic States and Poland. 
This exercise is expected to be much bigger than previous 
iterations. While Russia insists Zapad poses no threat, it is 
clearly part of Vladimir Putin's strategy to expand Russia's 
sphere of influence and increase military capacity along NATO 
borders. In response, the United States sent 600 American 
paratroopers to the area for the duration of the exercise.
    In 2009, President Obama reversed a plan to build missile 
interceptors and a radar station in Poland. As a result, Russia 
is no longer deterred from aggressive behavior on NATO's 
periphery. The strength of NATO, largely based on U.S. backing, 
is a direct threat to Russia and Vladimir Putin's strategy of 
expansion. We must be prepared to respond to this threatening 
activity.
    Executing Russia's long-term expansion strategy is much 
easier when the countries and institutions that can prevent 
Russian expansion may be fighting a disinformation campaign at 
home. Unfortunately, Russia has perfected the control of 
information by first imposing strict limits on its citizens. 
This problem is two-fold; it allows Russia to control what its 
citizens know about their own country, and it prevents Russian 
citizens from learning the truth about foreign government 
actions, particularly from the United States. This is why many 
Russians are reported to blame the United States for hardships 
resulting from sanctions rather than blaming the Russian 
government for behaving in a way that incurs sanctions in the 
first place.
    This type of censorship is absent in the United States 
because we support freedom of speech and the pursuit of 
knowledge. Our citizens have always trusted our news 
organizations to report what is going on in our country and 
around the world. When reporting is undermined by false 
information, it is difficult to determine what is real because 
the news becomes a game of ``he said, she said,'' or rather 
``he reported, she reported.'' How are our citizens to know 
what is accurate and what is false?
    There is no evidence that Russian interference in our 
election amounted to the actual changing of votes. With the 
German election coming up in a couple of weeks, we must 
continue to fight Russia's attempt to meddle in foreign 
elections and threaten our NATO allies. It is paramount that 
the United States engages with the American public and our 
allies to ensure that Russia's information war does not 
succeed.

    Prepared Statement of John Lansing, Chief Executive Officer and 
            Director, Broadcasting Board of Governors (BBG)

    Senator Gardner, Co-Chair Smith, Ranking Member Cardin, and 
Members of the Commission, thank you for inviting me to speak 
today about the Broadcasting Board of Governors' (BBG) and U.S. 
International Media efforts to counter Russian propaganda and 
disinformation.

Background

    I currently serve as the Chief Executive Officer and 
Director of BBG, where I oversee all operational aspects of 
U.S. international media comprising five networks:

The Voice of America, Office of Cuba Broadcasting (Radio and TV 
Marti), Radio Free Asia, Radio Free Europe/Radio Liberty, and 
the Middle East Broadcasting Networks including Alhurra TV and 
Radio Sawa.

    As U.S. international media, the BBG's mission is to 
inform, engage, and connect people around the world in support 
of freedom and democracy. We produce news on all media 
platforms including radio, television, online, and mobile 
digital and social media. Collectively, our programs reach 278 
million people on a weekly basis in more than 100 countries and 
61 languages. According to Gallup data, our audience increased 
by 52 million from 2015. The fastest growing segment of that 
audience is our newly expanded commitment to digital 
distribution which helps us target younger future leaders.
    The BBG provides consistently accurate and compelling 
journalism that opens minds and stimulates debate. We 
demonstrate values that reflect our society: freedom, openness, 
democracy, and hope.
    This advances U.S. national interests by fostering 
societies that enjoy greater stability and prosperity, live in 
peace with their neighbors, value universal human rights and 
reject terrorism and extremism. Such societies make better 
political allies and trade partners for the United States.
    This mission, granted by Congress at the end of World War 
II, remains vitally important. During World War II, the Voice 
of America fought against Nazi propaganda and the absence of 
information by beaming accurate and unbiased news and 
information into shuttered societies. RFE/RL was founded during 
the Cold War to break through the Kremlin's wall of tightly 
controlled media in the Soviet Union and in Eastern Europe with 
truthful professional journalism and by documenting the anti-
Soviet sentiment of the citizens under the authoritarian 
regime.

Current Media Environment

    Today we are encountering a global explosion of 
disinformation, propaganda and lies fed by multiple 
authoritarian regimes and non-state actors like ISIS, as they 
deploy digital media and social media platforms to target 
vulnerable citizens with false narratives. House Foreign 
Affairs Chairman Ed Royce, referring to Russian propaganda 
specifically, terms it ``the weaponization of information,'' 
and I believe that captures the severity of the negative impact 
quite well.
    From Russia and its periphery, to China and East Asia, Iran 
and the Middle East, to Cuba, Venezuela and large parts of 
Latin America--audiences are under a disinformation assault 
from authoritarian regimes and are desperate for credible 
information. The five U.S. International Media Networks of the 
BBG fill that void.
    To meet the challenge head-on, all five BBG networks are 
rapidly expanding our traditional radio and television 
distribution to digital, mobile and social networks so we are 
on the same playing field as our adversaries.
    Importantly, over 80 percent of our weekly audience on all 
platforms considers our content to be trustworthy, based on 
data compiled by Gallup, and we highly value the trust our 
audience has placed in us.
    At the same time, global press freedom is at its lowest 
point in over a decade. According to the 2017 Freedom House 
report on Freedom of the Press, only 13 percent of the world's 
population live in countries with a fully free press. Of the 
ten worst offenders--which include Cuba, Iran, North Korea and 
Syria--all are covered by one or more of the BBG's networks. In 
each of these countries, BBG networks challenge limitations on 
the press and provide alternative sources of news against 
state- or extremist-sponsored accounts.

Russian Actions

    In Russia, the Kremlin propaganda machine is breathing new 
life into a strategy of dezinformatsiya, or disinformation, 
operations to influence opinions about the United States and 
its allies and partners. Essentially, it's the weaponization of 
information that Chairman Royce describes. For example, Russian 
disinformation campaigns claim that the United States is 
covertly testing chemical warfare in Ukraine and that the U.S. 
has more than 400 laboratories around the world for biological 
weapons.
    State-sponsored broadcasters such as Russia Today (RT) and 
Sputnik are expanding their global operations, opening new 
bureaus and developing new programming. Earlier this year in 
Washington, DC, a Bluegrass radio station sponsored by NPR on 
105.5 FM was replaced by Sputnik radio offering listeners the 
Kremlin spin on U.S. news and politics. Outside these 
organizations, Twitter trolls and social media bots magnify the 
Kremlin-supported message.
    Unlike Cold War propaganda, Russian disinformation 
campaigns do not seek to sway listeners to the Russian point of 
view; rather they strive to undermine the notion of objective 
truth and foster social divisions--delegitimizing Western 
democracies while drawing negative attention away from Russia.
    In essence the Russian strategy is to destroy the very idea 
of an objective, verifiable set of facts. In their world the 
death of facts is the first step towards creating the 
alternative reality that helps them gain and keep authority 
with no accountability. If everything is a lie, then the 
biggest liar wins. That is what we are up against.
BBG Response

    While the threat is not new, the battlespace is changing, 
and the BBG is adapting to meet this challenge head on. We are 
one part of the overall government effort taking a global 
approach to countering Russian disinformation across a variety 
of platforms. I'd like to detail some of these key initiatives:

1) Current Time 

    Since Russian aggression against Crimea and eastern Ukraine 
started in early 2014, BBG language services at VOA and RFE/RL 
have added or expanded more than 35 new programs in Russian and 
other languages of the former Soviet space. The flagship of 
this effort is a 24/7 television and digital news network that 
BBG launched in February 2017 called Current Time , or 
``Nastoyashchee Vremya.'' In Russian, the name has a double 
meaning: ``right now'' or the current time; and ``the real 
deal,'' which plays off the name of Russia's traditional 
nightly newscast ``Vremya,'' meaning ``time.''
    The Current Time mission is to provide a constant stream of 
accurate, professional, independent, unbiased news to Russian 
speakers in Russia, the Russian periphery, and around the world 
including major capitals such as Berlin, Jerusalem, and London. 
For example, in Stockholm or Istanbul, Russian travelers may 
turn on the television in their hotel room to find Current Time 
next to CNN on the channel list.
    Produced by RFE/RL in a first-ever, unique partnership with 
VOA--another BBG network-- Current Time represents the next 
generation of digital news for BBG. Viewers access programming 
throughout the region on the Current Time website. Individual 
Current Time programs play on 39 affiliates in 14 countries, 
but the full 24/7 channel is distributed to over 23 countries 
on 59 satellite, cable, and digital distributors. The network 
also develops social media videos and other content, expanding 
the reach of Current Time and offering alternative sources of 
information in a Kremlin-controlled environment.
    The level of access to Current Time programming varies. In 
Russia, Current Time TV and radio broadcasts are not permitted 
on domestic television and radio airwaves, but audience members 
can access content through the website and YouTube. In 
Lithuania--a key Kremlin propaganda target and currently 
Current Time 's largest market--programming airs on two public 
broadcasting stations and is viewed by 8.2 percent of the adult 
population each week. Additionally, the BBG is finalizing 
negotiations with Lithuania Radio & Television to place Current 
Time on their nationwide Terrestrial Digital TV system--with 
signals covering 98 percent of the Lithuanian population and 
reaching into Belarus, Poland, and Kaliningrad.
    The Current Time network produces daily news shows on the 
United States and global events. It also features reports on 
business, entrepreneurship, civil society, culture, and 
corruption. Because Current Time is its own branded network on 
its own platform, BBG also has the flexibility to interrupt 
programming to bring late-breaking news and analysis or 
unfiltered, simultaneously translated broadcasting of major 
events. For example, during the 2016 U.S. election, VOA and 
RFE/RL provided a 5-hour marathon of live television 
programming with reports from around the country and live 
results and analysis.
    Digital statistics--such as the number of video views, 
comments, and shares--indicate that the Current Time network is 
yielding results online. From January to July 2017, Current 
Time social videos were viewed more than 300 million times on 
various digital platforms--nearly three times the number of 
views during the same period in 2016. Half of these views came 
from Russia. Further, in May alone, Current Time achieved a 
record 40 million video views across social media platforms. 
This impressive start is just the beginning, and as time goes 
on, we will have the opportunity to add to this digital data 
through our traditional media surveys that measure both reach 
and influence.

2) Targeting the Russian periphery

     Current Time is only the latest BBG effort in the Russian 
periphery and Eastern Europe. VOA and RFE/RL programming in 
Russia and the Russian periphery targets audiences in 23 media 
markets and is consumed by over 24 million adults on a weekly 
basis in 20 languages. In Kosovo and Albania, over 60 percent 
of the adult population tunes in on a weekly basis.

3) Meeting Russia on a global stage

    If we discuss the Russian disinformation campaign only in 
terms of Russian language efforts, we are missing the global 
context of what is truly a world-wide campaign. Russian-
sponsored programming is available in Latin America, Africa, 
the Middle East, and across Europe in Arabic, Spanish, French, 
English, and other languages.
    In Latin America, for example, VOA has strong relationships 
with hundreds of TV and radio affiliates. Every day our 
reporters offer live VOA feeds from DC into local news programs 
in Mexico, Colombia, Venezuela and other countries. They cover 
and explain developments in the United States and U.S. foreign 
policy and also develop special programs in partnership with 
local stations. For example, in Nicaragua, VOA and local 
partners are developing a series on the Russian presence in 
that country.
    If VOA content were no longer available, Russian media and 
other state-sponsored broadcasters (including China's CCTV and 
Iran's HispanTV) would be more than willing to provide their 
own slanted content replacing the VOA. Some affiliates have 
reported that they have been offered payment to air 
programming, which VOA does not provide in that region. 
Instead, VOA offers cogent programming and a brand trusted by 
Latin American audiences.
    We have also deployed a new brand called Polygraph, a joint 
RFE/RL and VOA website in English to call out Russian lies and 
educate global audiences on media literacy and how to spot fake 
news. Within the next few weeks, BBG will launch a Russian 
language version of this website.
    Russia has jumped to criticize these and other BBG efforts. 
On Current Time and other content aimed at the Russian 
periphery, a Russian state news organization charged that these 
programs are all produced by ``Russian people who put the 
interests of America above the interests of Russia.'' Our 
journalists have also come under attack. For example, RFE/RL 
contributor Mykola Semena was indicted on criminal charges in 
Crimea for so-called separatist activities, or rather 
professional journalism and telling the truth. His most recent 
hearing occurred on August 31. We take the safety and security 
our journalists very seriously, and believe that this and other 
incidents demonstrate the Kremlin is clearly irritated by our 
efforts.

BBG Challenges

    With the support of Congress and the generosity of the 
American taxpayers, BBG's budget has expanded over the last few 
years.
    In addition to nearly half-billion-dollar combined budgets 
of RT, Sputnik, and other Russian international media, the 
Russian government also targets Russian speakers around the 
world with the vast resources of its domestic state-controlled 
news and entertainment networks.
    The BBG's mission is to broadcast internationally; thus, 
BBG is constrained by law from programming in the United 
States, although we are now allowed to share content with U.S. 
media outlets upon their request. RT, Sputnik and others are 
free to broadcast in the U.S.--because the U.S. values free 
speech and freedom of the press, and we extend those rights to 
all. Russian speakers in the United States are free to choose 
not only from RT and Sputnik, but from dozens of Russian 
language stations whose scope is the equivalent of CNN, Fox, 
CBS, ABC, NBC, Bloomberg and other entertainment channels. We 
would welcome access to the Russian market to allow our 
networks to broadcast freely there in the spirit of 
reciprocity.
    Make no mistake--the United States is facing information 
warfare, and I don't use that term lightly. The BBG is an 
essential element of the national security response. The export 
of U.S. journalism and the values of free media and free speech 
speak to the world as much as U.S. boots on the ground. Like 
defense, development, and diplomacy, U.S. international media--
accurate, balanced and true--is an essential part of our 
standing on the world stage.
    I'll close with a quote from Edward R. Murrow, former 
director of the U.S. Information Agency and a much-respected 
journalist of the 20th Century, when he testified before 
Congress in 1963:

        To be persuasive we must be believable;

        to be believable we must be credible;

        to be credible we must be truthful.

    His words ring true today, more than ever.
    Thank you.

      Prepared Statement of Molly M. McKew, CEO, Fianna Strategies

    I am grateful for the opportunity to share some of my 
experiences countering Russian information warfare. I've spent 
the past decade watching the deployment of Russian information 
operations across the European frontier, including in Georgia, 
Moldova, Ukraine, and the Baltic states. I have done this 
primarily as a partisan, working for political actors and other 
groups being attacked by these Russian initiatives, so I tend 
to come at this from a different perspective than others. 
Russia is constantly acting, assessing, and refining their 
information capabilities, which have become an embedded and 
normalized part of our information landscape. We must be clear 
about what these measures aim to achieve and their impact, and 
bring a renewed sense of urgency to defending our nation.

     Overview of Russia's information war against Western societies

    It is essential that we evaluate the challenge of `Russian 
propaganda' from the right perspective in order to develop 
effective counter measures.
    First, disinformation is a means of warfare. It is the core 
component of a war being waged by the Russian state against the 
West, and against the United States in particular.
    Second, the primary line of effort in this war is conducted 
in English. We have failed to secure our information space, 
allowing our self-defined 'primary adversary' to shape and in 
some cases control it at will, often blind to what they aim to 
achieve. This provides the Kremlin a significant strategic 
advantage.
    Third, we have only just begun to understand the scope and 
scale of resources, formal and informal, that Russia devotes to 
information warfare--which means we have failed to understand 
the importance the Kremlin ascribes to these efforts. Some 
resources are devoted to forms we know--RT, Sputnik, etc--and 
others to forms we are coming to know--automated actors like 
botnets, and amplifiers like trolls--but far more of these 
measures are still deep within the shadow space, acting along 
parallel lines of effort.
    It bears repeating: it's not propaganda; it's information 
warfare. It is, in many respects, the war that matters most. In 
our strategic thinking, information operations of this kind are 
meant to amplify military operations. In Russian doctrine, it 
is the other way around: military operations amplify 
information operations. The `smoke and mirrors' are a primary 
means of power projection.
    The information warfare being used against us aims to erode 
political will, in ourselves and our allies, to defend what 
defines us; to sow doubt and division, discord and chaos, in 
order to reshape an environment where American power is less 
effective; to target the minds of our soldiers and leaders, 
activists and influencers, voters and citizens, using 
subversive means; to spark political unrest, and make us 
question that democracy can provide just, free, equitable, 
secure, and prosperous societies.
    And it is working.
    We have seen this type of information warfare deployed 
against other nations. There is ample evidence of the extent to 
which Russia will go to shape demographics, politics, and 
social structures in its near abroad, using military, economic, 
political, and cultural coercion. But we, as Americans, want to 
believe it doesn't work on us--that oceans are still a barrier 
to foreign invasion, that we are immune to these manipulations, 
particularly from an opponent far weaker, militarily and 
economically.
    In their weakness, the Kremlin bets big. So far, the gamble 
has paid off--because for years they have been strolling across 
an open battlefield.
    To secure our information space, we need an integrated 
understanding of the threat, and an integrated set of measures 
that can be taken to counter it, including:
    <bullet> LEnhanced clarity of the threat and its impact: We 
must clearly identify the tools and tactics being used against 
us in the information space, and effective means of disrupting 
them.
    <bullet> LWhole-of-government response: We need unity of 
mission to secure the American information space, including 
organizing our diplomatic, military, and intelligence assets to 
counter information warfare via a whole-of-government approach. 
Nongovernmental assets and actors also play a vital part in any 
effective response, and should be creatively engaged.
    <bullet> LRethinking authorities: We must reevaluate the 
role of US military/counterintelligence actors in securing our 
information space during this time of rapidly escalating 
threats. Our most experienced assets should not be boxed-out of 
defending the American people.
    <bullet> LDevelop rapid response capability for irregular 
information warfare: Build capacity to execute local rapid 
information operations (positive and interceptive) manned by 
sanctioned irregulars (US Special Forces and 
counterintelligence assets, plus independent actors).
    <bullet> LGive Americans defensive tools: This occurs via 
three strands. First, speaking clearly to the public about the 
threat. Second, developing practices for enhancing national 
`cognitive resistance,' particularly in groups being targeted 
by Russian operations. Third, building stronger data/privacy 
protections for Americans to limit the coercive applications of 
`big data.'
    <bullet> LMotivate/activate the American populace: We need 
political leaders with the will to speak clearly to our people 
about our principles and values--the narratives and truths that 
matter.
    <bullet> LWhole-of-alliance approach to securing the 
information space: A better-coordinated US response mechanism 
will be better positioned to collaborate with and lead our 
NATO/EU allies in countering Russian information operations. A 
range of different mechanisms have been developed by certain 
European military, government, and civil society actors that 
would be greatly enhanced by clear strategic goals and 
supporting resources.
    <bullet> LSocial media evaluation/regulation: Adversarial 
forces are using social media platforms to attack our 
societies. We need to consider applying rules to how paid and 
automated content can be spread through social media. This is 
not about limiting the free flow of information and ideas--we 
should never seek to emulate Russian control tactics or the 
means used by other authoritarian states--but restricting the 
ability for coercive targeting and the simulation of human 
supporters/movements to promote coercive propaganda.
    <bullet> LEnhanced understanding of aims of Russian 
financial flows: Russian disinformation has purpose. So does 
the export of its capital. We must be far more aware of the 
aims of this financial flow, especially investments into/
partnerships with American technology companies.
    These measures will be discussed further in the final 
section.
    There is an urgent need for effective counter measures. 
Russian efforts fuel conflict and chaos in Europe, the Middle 
East, Afghanistan, Asia, and the Arctic. While our attention is 
elsewhere, spread thin across crises and putting out fires, the 
other tools in Russia's guerrilla arsenal have time to gain 
vantage. This arsenal is backed by considerable state financial 
resources. We have a tendency to see Russian kleptocracy as a 
means of buying super-yachts and penthouses. It isn't. It's 
about buying us. The range of tools this money supports is 
unnerving in its informality, depth, and potential.
    Russia's war in Syria has been a giant arms expo meant to 
demo and sell a new generation of Russian weaponry. The Russian 
information control model is just as much on display and in 
demand. President Putin recently discussed the opportunities 
and perils of artificial intelligence, adding: ``We will 
certainly share our technology with the rest of the world, the 
way we are doing now with atomic and nuclear technology.'' \1\ 
We have every interest in preventing the proliferation of 
effective tools and models of computational propaganda. \2\
---------------------------------------------------------------------------
    \1\  Putin's remarks can be read here in English: https://
sputniknews.com/russia/201709011057000758-p 1 utin-schoolchildren- 
world-lord/
    \2\  Computational propaganda is the use of automation--including 
tools like botnets and artificial intelligence (AI), directed by 
algorithms and the harvesting of data to create targeting profiles--to 
influence opinion via the internet and social media.
---------------------------------------------------------------------------
    Ten years since a cyber attack on Estonia, nine years after 
Russia's invasion of Georgia, almost four years since the 
invasion of Ukraine, ten months since we got a red alert on the 
information war being waged against the American people--and 
our actions says we're still trying to decide if this is a 
threat that we need to take seriously. For example: Congress 
mandated the creation of the State Department's Global 
Engagement Center to help counter Russian disinformation, 
authorizing considerable financial resources to the cause. 
These resources have neither been allocated nor spent. \3\ 
Other efforts have directed resources to countering Russian 
narrative--in Russian. \4\ Very little has been done about the 
English language disinformation targeting Americans.
---------------------------------------------------------------------------
    \3\  Toosi, Nahal. ``Tillerson spurns $80 million to counter ISIS, 
Russian propaganda.'' Politico. Aug 2, 2017. http:// www.politico.com/
story/2017/08/02/tillerson-isis-russia-propaganda-241218 Toosi, Nahal. 
``Tillerson moves toward accepting funding for fighting Russian 
propaganda.'' Politico. Aug 31, 2017. http://www.politico.com/story/
2017/08/31/rex-tillerson-funding-russian-propaganda-242224
    \4\  CBS News. ``U.S. launches TV network as alternative to Russian 
propaganda.'' Feb 9, 2017. https://www.cbsnews.-com/news/us-current-
time-tv-network-rfe-russia-russian-propaganda-misinformation-rt/
---------------------------------------------------------------------------
    Russia has corrupted our information space through 
countless means. Right now, there are efforts to analyze the 
war; expose the war; map the war--but very little is being done 
to fight the war, or to provide resources, mandate, or 
authorities to those with the skill sets to do so. While we 
investigate and analyze and discuss, the diverse initiatives 
underway from the Kremlin have accelerated in Europe, across 
the globe, and in the United States.

 Understanding the aims of Russian information warfare: Examples from 
                               the field

    Information tools are the new superweapons--like chemical 
weapons in WWI or the atomic bomb in WWII, they shift the 
fundamental balance of power and fear. In their essence, 
Russian measures aim for the complete domination of an 
information landscape in order to influence the minds of a 
population. These measures target, in particular, military 
personnel, political leaders, and vulnerable, disenfranchised, 
and unmoored elements of society--but they also target society 
writ large by focusing on identity, historical memory, topics 
of a divisive nature, and more. These measures aim to harden 
specific aspects of identity; to radicalize elements of 
society; and to build the activation potential of a population.
    Disinformation can be lies or partial truth. What matters 
is that it has purpose. It is targeted against specific parts 
of a population using crafted narrative, and it aims to 
mobilize groups of people to act in specific ways. So this is 
not about words, but about achieving concrete results. Ideas 
lead to decisions; once a decision is made, it will be 
rationalized, entrenching the idea.
    The technological tools of producing, disseminating, and 
amplifying disinformation matter--but far less than the 
construction of that information to be persuasive and coercive 
against the audience. In this regard, two things matter: 
narrative and storytelling. Narrative is the overarching 
construct of the information, providing answers to questions of 
who we are and why things are the way they are. Storytelling is 
how you build and transmit narrative.

    ``What did it aim to achieve?'' is a more important 
question in evaluating disinformation than what is true. 
Fighting it must also have a purpose. If we aren't clear what 
that purpose is--what we are fighting for, what we believe--
then we can't win. Russia goes to great pains to downplay their 
role in information operations because exposing them can 
restrict their freedom of movement. Some of the most effective 
Russian disinformation aims to make you believe Russia is weak 
and disorganized, and the Kremlin excels at finding local 
actors to act as masks and passthroughs. There can be many 
different lines of effort aiming to achieve different outcomes 
in different audiences. But there is a pattern and a texture to 
how these efforts form and coalesce, to the narrative they use, 
and to the results they can yield. Below are a few examples 
from my own experiences.

Shaping the Baltic information environment: During the past 
year, I worked as the strategic director of a project to 
enhance Baltic Russian-language media. This was a modest 
initiative, primarily small grants to journalists and 
producers. Nonetheless, I can document about six attempts by 
Kremlin-connected actors to gain access to the project and our 
work. This illustrates how deeply dominance in the Baltic 
information environment is a preeminent concern of Russian 
efforts.
    In the Baltic states, there is a basic three-pronged 
approach: rewriting history, demonizing NATO, and sewing doubt 
about the efficacy of pro-Western governing forces. 
Understanding the narrative of these operations is critical: 
efforts to demonize occupation-era Baltic resistance movements 
or deny the existence of a pact between Stalin and Hitler 
sometimes seem obscure to us, for example, but the purpose is 
to create justification for modern Russian state actions and 
ambitions. These nations are inundated with Russian and English 
language content generated by the Russians as they aim to shape 
the perception of specific groups. Russia also shapes the 
external narrative on the Baltics by providing English language 
news from the region. A recent report found that computational 
propaganda plays a significant role here: a quarter of the 
accounts posting in English on Twitter in the Baltics and 
Poland were likely bots/ automated, responsible for 46% of the 
total English language content on NATO. \5\
---------------------------------------------------------------------------
    \5\  NATO Stratcom COE. Robotrolling 2017/1. http://
stratcomcoe.org/robotrolling-20171

Moldovan identity politics: Unlike the Baltic states, Moldova 
does not have a strong national identity and is quite divided 
as a society. It also has a terrible information environment, 
with most of the national media controlled by the nominally 
pro-Western oligarch whose party has captured most of the 
governmental institutions. This is fertile ground for 
propaganda and information operations, particularly nasty 
personal attacks--but the way information moves and is used 
helps to expose agendas, in many respects. In the last 
presidential election, for example, which was won by the pro-
Russian candidate, the media holdings of the `pro-Western' 
oligarch mentioned above amplified Russian attacks and 
disinformation against the pro- European candidate in the race. 
\6\
---------------------------------------------------------------------------
    \6\  Jamestown Foundation. ``Moldova's De Facto Ruler Enthrones 
Pro-Russia President.'' Eurasia Daily Monitor Volume: 13 Issue: 196. 
December 14 2016. https://www.ecoi.net/local_link/333654/461950_en.html 
Vlas, Cristian. ``Old Fashioned Skulduggery Overshadows Elections in 
Moldova.'' Emerging Europe. Nov 19, 2016. http://emerging-europe.com/
voices/voices-intl-relations/old-fashioned-skulduggery-overshadows-the-
elections-inmoldova/
---------------------------------------------------------------------------
    In Moldova, false information is also frequently introduced 
via Russian information channels to create positive sentiments 
about the unpopular ruling force--a phenomenon we called 
`double disinfo,' disinformation meant to make another piece of 
untrue information believable. A recent example of this had 
pro-Russian social media accounts leak a fake letter in which 
USAID complained to the ruling party that they were not doing 
enough to fight Russian information in Moldova. \7\ When the 
letter was exposed as a fake, the false counter-positive--that 
the ruling party was fighting Russian information--is made more 
believable.
---------------------------------------------------------------------------
    \7\  The source of the letter was: https://twitter.com/
Urugvayintellig/status/904633014541574144/photo/1

Voter mobilization/suppression in Georgia: Georgia's 
parliamentary elections in 2012, during which I worked as an 
advisor to the Georgian National Security Council, were the 
first where I saw Russian-connected political forces looking to 
hire Western firms who could teach them about micro-targeting 
and other social media-based information tools. American teams 
marketing themselves as contributors to the Obama victory were 
hired by Bidzina Ivanishvili to operationalize black 
information campaigns, which contributed to getting tens of 
thousands of people in the streets before the election. Most of 
what was happening in the social media landscape was completely 
opaque to the ruling party until well after the election: the 
messaging was designed not to touch anyone who was a consistent 
supporter of the government.
    One aspect of this overall campaign that I would highlight 
as a favored Russian tactic: the use of diversion. The online 
media campaigns cultivated an intense environment of fear of 
the potential for violence--rumors that the government would 
declare martial law instead of holding the vote; claims Russia 
would invade again if the ruling party won; threats of 
disruption and violence at the polls. This consumed the 
attention of the government/ruling party and the diplomatic/
observer community. But this was always meant to be a 
distraction from real lines of effort: black media campaigns 
and traditional voter mobilization efforts. I mention this 
because I believe there was a similar Russian diversion effort 
during the US elections: US intelligence and the Obama White 
House feared disruption of our elections via the hacking of 
electoral and voting infrastructure, and significantly less 
attention was paid to the information operations being run. In 
both cases, the lesson we should learn: information operations 
are a primary line of effort from the Kremlin.

Narrative themes during elections/referenda: While every now 
and then there is a Marine Le Pen--an openly pro-Kremlin 
political candidate--arguably the more dangerous new archetype 
of candidates favored by the Kremlin are those who amplify 
Kremlin narrative as part of their political platforms without 
being so openly pro-Russian. These themes can include: 
nationalism/anti-globalism/anti-integration; anti-refugee/anti-
immigration; `traditional' identity and values; anti-tolerance, 
especially anti-LGBT sentiments; to name a few. Knowingly or 
not, parties focusing on these themes contribute to achieving 
core goals important to the Kremlin--rejecting Western liberal 
democracy; weakening NATO, the EU, and the transatlantic 
alliance; deepening divides inside our alliances and our 
nations that can be exploited. This model is critical in many 
countries, especially some former captive Soviet nations, where 
pro-Russian political forces would be unable to gain 
significant following. But the governing agendas of these 
parties tend to be more inward looking and de facto downplay 
the significance of the existential threat from Russia, on 
which the basic line tends to be: ``Wouldn't it be nice if we 
had a better relationship with Russia (especially 
economically)?''
    The degree to which Russia exploits this ideological space, 
sometimes very tactically, should not be underrated. Some 
groups knowingly engage the Kremlin for resources and support, 
glad to have an ally; others may receive support via 
amplification in Russian information architecture, whether they 
asked for it or not. Anti-LGBT sentiment has been a vital 
avenue for the Kremlin to cultivate a new generation of 
political and cultural allies across Europe and the United 
States. In elections across Europe in the past two years, anti-
refugee and anti-migrant sentiment has been used repeatedly to 
galvanize nationalistic voters; this has been a core theme 
deployed in the German elections which will be held later this 
month, as it was used before in France and the Netherlands and 
the Brexit referendum. Just this week, we have news that 
Russian accounts on Facebook were used to organize anti-
immigrant rallies in the US during our election. \8\ There are 
dozens of examples that could be given, but that one makes it 
the most clear: this isn't just information but the hope to 
elicit behavioral change.
---------------------------------------------------------------------------
    \8\  Collins, Ben, Kevin Poulsen, Spencer Ackerman. ``Russia Used 
Facebook Events to Organize Anti-Immigrant Rallies on U.S. Soil.'' The 
Daily Beast. Sept 11, 2017. http://www.thedailybeast.com/exclusive-
russia-used-facebook-eventsto- organize-anti-immigrant-rallies-on-us-
soil

---------------------------------------------------------------------------
  Assessing the state of conflict and readiness in the information war

    In order to propose defensive and offensive information 
warfare strategies, it helps to define the current doctrinal 
and strategic landscape clearly. This starts with the 
`Gerasimov Doctrine.' The Gerasimov Doctrine builds a framework 
for the use of non-military tactics, including information 
warfare, that are not auxiliary to the use of force but the 
preferred way to conduct war. Chaos is the strategy the Kremlin 
pursues, aiming to achieve an environment of permanent unrest 
and conflict within enemy states and alliances where a weak 
Russian state can exert outsize influence and control. \9\ But 
we've been talking about the Gerasimov Doctrine like it's the 
holy grail of understanding Russia since 2013. We reanalyze it 
over and over. Meanwhile Russian doctrine has evolved further, 
articulating how to apply these core concepts across multiple 
strands of warfare.
---------------------------------------------------------------------------
    \9\  McKew, Molly. ``The Gerasimov Doctrine.'' Politico Magazine. 
Sept/Oct 2017 ed. http://www.politico.com/magazine/ story/2017/09/05/
gerasimov-doctrine-russia-foreign-policy-215538 McKew, Molly. ``Putin's 
Real Long Game.'' Politico Magazine. Jan 1, 2017. http://
www.politico.com/magazine/story/ 2017/01/putins-real-long-game-214589

        In the 21st century we have seen a tendency toward 
        blurring the lines between the states of war and peace. 
        The very ``rules of war'' have changed. The role of 
        nonmilitary means of achieving political and strategic 
        goals has grown, and, in many cases, they have exceeded 
        the power of force of weapons in their effectiveness. 
        All this is supplemented by military means of a 
        concealed character.The information space opens wide 
        asymmetrical possibilities for reducing the fighting 
        potential of the enemy. Among such actions are the use 
        of special-operations forces and internal opposition to 
        create a permanently operating front through the entire 
        territory of the enemy state, as well as informational 
        actions, devices, and means that are constantly being 
---------------------------------------------------------------------------
        perfected.

        The Value of Science is in the Foresight--
        Gen. Valery Gerasimov, Russian Chief of the General 
        Staff, Feb 2013

        The military strategies applied by the leading nations 
        stipulate that dominance in information space is 
        essential in warfare. This task requires engagement of 
        media and social networks. They are complemented by 
        information, psychological, and technical influence.. 
        The [Russian] Armed Forces are currently gaining their 
        combat experience in Syria. They have a unique 
        opportunity to test modern weapons and military 
        equipment in adverse climate conditions. It is 
        necessary to continue this military practice in the 
        Syrian campaign and draw the lessons to adapt and 
        improve Russian weapons. It should be noted that 
        victory depends not only on the material but also the 
        spiritual resources--the nation's cohesion and desire 
        to confront the aggressor at all cost. 

        The World on the Verge of War--Gerasimov, March 2017

        The evidence points to new types of military action in 
        upcoming conflicts. Our 20 years of experience insist 
        on the importance of irregular forces (guerrillas). 
        They are integrated into military personnel and excel 
        at combat endurance. Furthermore, irregular operations 
        achieve the most political goals of war. If guerrilla 
        forces fail, defeat is imminent, regardless of 
        conventional and special forces superiority. Guerrillas 
        are capable of large-scale operations and consistent 
        military action pursuing tactical and strategic goals. 
        Coordination with guerrillas is always complicated. 
        Nonetheless, their actions must be coordinated with the 
        regular armed forces, in particular during special 
        operations. In other words, WWIII guerrillas must be 
        under the authority of a single commander. Thus, these 
        unique forces are vital for the Russian Armed Forces.. 
        If provided with the information and intelligence 
        available to the regular armed forces, even small 
        numbers of irregular troops can produce immediate 
        results. 

        The Guerrilla Payees--Konstantin Sivkov, retired 
        General Staff officer, April 2017

    What we see in these excerpts: \10\ Russia is 
operationalizing a fundamentally guerrilla approach to total 
warfare in order to achieve strategic political objectives--a 
global imperialist insurgency.
---------------------------------------------------------------------------
    \10\  The Value of Science is in the Foresight--https://
inmoscowsshadows.wordpress.com/2014/07/06/the-gerasimovdoctrine- and-
russian-non-linear-war/; The World on the Verge of War--http://vpk-
news.ru/articles/35591; The Guerrilla Payees--http://vpk-news.ru/
articles/36159
---------------------------------------------------------------------------
    Both the United States and Russia, for different reasons, 
have made the determination that fighting and defending against 
unconventional warfare is the key to future war. But we pursue 
it differently. The US has shifted toward special operators and 
the use of drones; training partner nations, and helping them 
conduct strikes on targets; running defensive information 
operations; bolstering our efforts with civilian-military 
affairs projects. Russia does everything else. The nature of 
their efforts is not defensive or retaliatory, but entirely 
offensive.
    The Kremlin is recruiting people, groups, and societies 
into a dirty war.

 Securing our information space is about English language information, 
                              not Russian

    When we speak of `Russian propaganda,' we don't really mean 
Russian language propaganda as much as we mean Russian state 
efforts to export disinformation into local languages in many 
European countries, and into English in particular, which have 
drastically accelerated since 2013. Russia invests heavily in 
media resources; learning, creating, and adapting tools for 
targeting information to specific individuals; and automating 
disinformation across social media platforms in ways to reach 
specific people, counter/promote specific ideas, and game 
algorithms to give primacy to the Russian version of `truth.' 
In many respects, our entire information space has been 
corrupted by or made vulnerable to Russian information 
operations. The Russian language space, in comparison, is 
controlled, insular and collapsing on itself without captive 
nations--as the chairman of the Duma Committee on Education and 
Science recently noted, while railing against the `linguistic 
hegemony of English,' the number of Russian speakers has 
declined by 50 million people since 1991. \11\
---------------------------------------------------------------------------
    \11\  The remarks can be read here in English: https://
themoscowtimes.com/news/russian-language-losing-out-of-english- 
hegemony-says-official-58779
---------------------------------------------------------------------------
    But the `linguistic hegemony of English' also makes us 
vulnerable. Disinformation is more powerful in English because 
English is the language of the internet. It's a bigger echo 
chamber, and it gives more reach to target audiences vulnerable 
to core parts of Russian narrative. The US also has incredibly 
weak data/privacy protections, thus enabling the harvesting and 
analysis of data for cognitive targeting in ways that should 
make us profoundly uncomfortable.
    Looking at information warfare as a map exercise: Russia 
has used disinformation to project the line of conflict 
forward, further from their borders--to effectively erase 
borders while creating the virtual `buffer zone' they can't 
have territorially. Our immediate response should seek to 
mirror this--not by addressing a problem hundreds of miles 
behind the line of conflict (Russian language) but by moving 
the line of conflict further from our country, back toward the 
aggressor. If this war has no borders, it is a fluid space that 
we must constantly expand and enhance not to lose. In real 
terms, there is no `defending' the information space. The only 
defense is offense--illuminating and educating people on the 
threat, and promoting our principles and values.
    Russia likes to position all their doctrine as a `response' 
to Western actions. A more helpful way to gain insight into 
what the Kremlin believes they can achieve with unconventional 
warfare, and with information warfare in particular, is to 
understand that all the tools they deploy against us, they used 
against the Russian people first. We need to secure our 
information space, just as we would any other border. The 
Russians did this to their own information space before 
invading ours--building parallel social media, controlling 
access to content, flooding the local media landscape with free 
entertainment content, shutting down most of the independent 
media, now using automated social media content to amplify and 
bury specific views.

       An integrated strategy for securing our information space

    There are four key groups for crafting an effective 
response to Russian information operations: government 
(including military, intelligence, etc); industry (tech and 
data companies); civil society; and citizenry. Government plays 
an essential coordination role.
    These are complicated issues, touching on freedom of speech 
and expression, national security, and more. We cannot use the 
same means of information control as the Kremlin to secure our 
information space. Our mirror-world version of Russian 
information control: not to control the internal information 
environment, but ensure its integrity; not to harden views, but 
to develop positive cognitive resistance efforts to build 
resilience in our population; not to argue that there `is no 
truth,' but to promote the values and idea that we know matter.
    Securing our information space has less to do with 
cybersecurity than building resilience in our citizenry, and 
re-crafting the ways that information can be introduced into 
and spread across our networks. I will expand on the measures 
proposed in the first section below, touching briefly on the 
non-governmental actors before focusing on what our government 
can do.

CIVIL SOCIETY--including journalists/investigative journalists 
and initiatives to track and document Russian influence 
operations--plays a vital role in both bringing enhanced 
clarity about the threat and giving Americans defensive tools 
via enhanced awareness of Russian information operations and 
what they aim to achieve; exposing Russian information 
campaigns and the networks that amplify them; and tracking and 
illustrating how Russian influence operations work, more 
broadly. In the future they will also play a vital role in 
restoring our collective resistance to hostile influence 
operations. This requires creativity, and resources being 
directed to civil society initiatives should tolerate some 
degree of experimentation and failure.

CITIZENS need to be more aware of their information 
environment. I believe this is a more complicated effort than 
the promotion of media literacy and fact-checking alone.

INDUSTRY, in particular social media and tech companies, bear a 
special responsibility in our efforts to respond to Russian 
information warfare--to remove or contain Russian information 
architecture from our system. But there are broader questions. 
After the 2016 election, there was a lot of discussion about 
Americans `choosing' to inhabit separate information universes. 
But what isn't discussed: this is not always a choice, but 
something being done to us--by targeted advertising, by 
promoted content, and by algorithms that tell us what we want 
to see--algorithms that Russian data scientists and information 
warriors aptly know how to game.
    Micro-targeting, hyper-targeting, and individual targeting 
on social media have one primary application, in a variety of 
forms: radicalization.There are some uncomfortable questions to 
be asked here, about whether social media platforms are blindly 
or knowingly enabling the means for mass psychological 
operations to radicalize societies and deepen divisions, and 
whether there are accountability measures required. Facebook in 
particular has created a means of mass surveillance and 
collection, and a means of operationalizing information 
operations effectively and inexpensively--which it acknowledges 
but downplays. \12\ Despite detailed explanations why they bear 
no legal or moral responsibility for what their engineering has 
created, Facebook is essentially a real-life, free-market `big 
brother'--a platform for surveillance and computational 
propaganda available to any power willing to pay for it.
---------------------------------------------------------------------------
    \12\  Shane, Scott. ``The Fake Americans Russia Created to 
Influence the Election.'' New York Times. Sept 7, 2017. https://
www.nytimes.com/2017/09/07/us/politics/russia-facebook-twitter-
election.html http://www.politico.com/magazine/story/2017/09/08/how-
facebook-changed-the-spy-game-215587
---------------------------------------------------------------------------
    The same Russian intelligence-connected company that 
previously staged a test information assault against the United 
States--an attack meant to instill fear and mobilize panic 
\13\--was allowed to buy political advertising targeting 
Americans during elections. \14\ As long as social media 
platforms refuse to acknowledge the tools and tactics they are 
enabling, promoting, and profiting from--and explain why they 
will not take more aggressive steps to protect data privacy, 
remove revenue possibilities from propagandists, and ensure 
that content automation isn't gaming algorithms to subvert the 
minds of human users--then we need to be more aggressive in 
educating our population about how they are being attacked in 
the information space and exactly what these attacks aim to 
achieve. So far, Americans have been offered little clarity of 
leadership in this regard.
---------------------------------------------------------------------------
    \13\  Smith, Rohan. ``Columbia Chemical hoax tracked to `troll 
farm' dubbed the Internet Research Agency.'' news.-com.au. June 4, 
2015. http://www.news.com.au/technology/online/social/columbia-
chemical-hoax-tracked-to-trollfarm-dubbed-the-internet-research-agency/
news-story/128af54a82b83888158f7430136bcdd1
    \14\  Shane, Scott & Vindu Goel. ``Fake Russian Facebook Accounts 
Bought $100,000 of Political Ads.'' New York Times. September 6, 2017. 
https://www.nytimes.com/2017/09/06/technology/facebook-russian-
political-ads.html

GOVERNMENT plays a vital role in coordinating an effective 
response to Russian information warfare. This is particularly 
true in two areas: political will and structural response. Both 
are critical, but the importance of political will cannot be 
undervalued. For example, in Europe, there have been new 
institutional actors introduced--including the NATO and EU 
Centres of Excellence, and the EU's East Stratcom Task Force--
as well as support given to a range of civil society 
initiatives--including think tanks like European Values \15\--
but the lack of central political will to mount an effective 
strategy against Russia undercuts these smart initiatives. Our 
alliance would benefit from American political will galvanizing 
a whole-of-alliance approach to securing the information space. 

---------------------------------------------------------------------------
    \15\  For European Values' recommendations on how responding to 
hostile disinformation operations, see: http:// www.europeanvalues.net/
wp-content/uploads/2016/06/Full-Scale-Democratic-Response-to-Hostile-
Disinformation-Operations-1.pdf
---------------------------------------------------------------------------
    In the US, I hope political will be in abundance when 
enhanced clarity of the threat and its impact  are provided. To 
counter what is being done to our society by a foreign 
adversary, we need a whole-of-government response. The Russian 
operational footprint in Europe relies on a core of SVR/FSB/GRU 
resources, with access to significant technology and 
information capabilities, operating in a broad lane that asks 
for creativity and doesn't punish failure, backed by state 
resources. We have the architecture to be able to build a more 
effective task force--but we don't. Unity of mission is 
critical. We need a `star chamber' coordinating our best 
assets--diplomatic, military, intelligence, industry, 
nongovernmental, and informal--to counter the information 
warfare launched by the Kremlin's `power vertical.'
    Irregular warfare--including information warfare--will need 
to be fought within our borders. We should define how we do 
that before the next crisis. To bridge our capabilities gap on 
an accelerated timeline, we need to review our resources for 
countering threats in the information space, and we need to 
rethink authorities.
    We have forces designed for unconventional warfare: US Army 
Special Forces. In Europe, for countering Russia, that's the 
10th Special Forces Group. This is a group of regionally-
aligned, culturally-astute, deep-knowledge forces with the 
expertise and capabilities to work with local partners to 
amplify efforts and address critical needs. But practically 
speaking, they lack the resources, mandate, and technology to 
act. Instead of giving 10th SFG added resources to develop a 
rapid response capability for irregular information warfare, 
conduct Military Information Support Operations (MISO), operate 
in a wider lane in non-conflict countries alongside the State 
Department in countering these aggressive threats, and 
coordinate other military and defense assets in this area--this 
expertise is still in a box. The Marines have recently 
established a 4-star office dedicated to information 
operations, led by the Deputy Commandant of Information. There 
is a whole branch of the Pentagon that specializes in this 
area. We need this expertise engaged in the fight, and we need 
to remember that our mil-mil relationships are the steel in the 
architecture of NATO, which is reinforced by the intelligence 
backbone of the `Five Eyes' community.
    There is a similar challenge with authorities for US 
counterintelligence, especially for the FBI and especially in 
the information space . The Russians have identified a giant 
\16\ blind spot where they can operationalize influence with no 
interference or oversight (social media). We have to change 
that equation without falling into the trap of replicating 
Kremlin tactics.
---------------------------------------------------------------------------
    \16\  Rangappa, Asha. ``How Facebook Changed the Spy Game.'' 
Politico Magazine. Sept 8, 2017. http://www.politico.-com/magazine/
story/2017/09/08/how-facebook-changed-the-spy-game-215587
---------------------------------------------------------------------------
    Clarity on the threat is one of the primary means of giving 
Americans defensive tools against information operations, and 
engaging them these issues will help motivate the American 
populace and enhance resistance. It is vital to evaluate 
whether regulatory measures can be legislated to enhance data/
privacy protections for Americans, limit coercive applications 
of data driven targeting, and bring transparency to paid 
content on social media platforms. Again, this is not about 
limiting the free flow of information and ideas, but 
restricting the ability for coercive targeting and the 
simulation of human supporters/movements to promote coercive 
propaganda.
    Finally, government can apply its capabilities in tracking 
hostile foreign financial flows to enhance understanding of how 
Russian money moves in our system, and what it aims to achieve. 
President Putin is not some all powerful being. But he has 
certainty and seeks to build a cynical world were the only 
thing that matters is money. That is the `ideology' the Kremlin 
exports. And until we understand how that money is poisoning 
our system of beliefs, he wins.
    Our primary failures when it comes to responding to 
information warfare are failures of imagination, clarity, and 
coordination. We don't wargame the shadow war. We need to. This 
is a war we must win.

  Prepared Statement of Melissa Hooper, Director of Human Rights and 
               Civil Society Programs, Human Rights First

                        Introduction

    Senator Gardner, Co-Chair Smith, Ranking Member Cardin, and 
Members of the Helsinki Commission, I would like to thank you 
and Chairman Wicker for giving me the opportunity to testify 
today regarding the damage caused to democracy and human rights 
globally by Russian disinformation efforts in the United States 
and in Europe, the efforts of some European countries to 
respond, and steps the United States should consider to counter 
Russia's weaponization of information.
    I want to address these issues from the perspective of 
someone who has studied Russia's interference strategies as 
they operated in Russia during my years living there, and 
followed their development in Europe, especially after Russia's 
invasion of Ukraine.
    In the United States, we are still grappling with the 
ramifications of the Russian government's meddling in the 2016 
Presidential election. Just last week, Facebook revealed its 
sale of $100,000 worth of ads promoting divisive social 
messages to 470 fake, likely-Russian-owned sites. Since the 
election, Congress and other policy-makers have become 
increasingly sensitized to the Russian government's use of 
various forms of disinformation, including Russian-funded media 
outlets that publish false or misleading stories, automated 
bots and trolls that disseminate false information to create 
the appearance of a ``grassroots'' movement, the use of faux 
``experts,'' foundations and think tanks that lend a veneer of 
credibility to fabricated information, and other methods 
intended to sow confusion and threaten the foundations of 
democracy--including the concepts of truth and trust.
    The use of disinformation is not the Russian government's 
sole strategy, but is part of a coordinated effort to disrupt 
and attack liberal policies, institutions, and norms wherever 
the opportunity arises, with an overarching goal of fracturing 
the European Union and the trans-Atlantic alliance. Other 
strategies include economic influence, in which key figures are 
offered lucrative deals that implicate them in Russian 
corruption--such as has occurred in Germany, the UK, and the 
Czech Republic; electoral disruption, such as funding fringe 
political parties--as has occurred in Germany and France; and 
the weakening of multilateral organizations such as the OSCE or 
UN bodies through obstructionist policies.
    At Human Rights First, we have documented the effectiveness 
of these threats in Eastern Europe, including how Russia has 
contributed to significant backsliding on democracy and human 
rights in Poland and Hungary--each a NATO ally. We are seeing 
Russia make inroads in Central and Eastern Europe through the 
use of online bots and trolls in Poland, the buying off of 
politicians and business leaders in Hungary and the Czech 
Republic, the funding of youth military camps in Hungary and 
Slovakia, and the dissemination of fabricated stories about 
migrants and Muslims across Europe, but particularly in 
Germany.

Contributions to Backsliding in Hungary and Poland; 
                              Disruption in Germany

    In Hungary, Prime Minister Viktor Orban's government often 
rubber stamps Kremlin propaganda. The Hungarian government 
frequently shares the Kremlin's interest in disrupting E.U. 
policy, unity, and principles of equality and human rights, 
particularly when it comes to refugee issues. Indeed, the 
Hungarian government itself often generates false information 
on migrants, refugees, and the E.U., messages that align with 
the views of the Kremlin.
    Russia has gained a foothold in Hungary through its support 
for business projects such as the expansion of the PAKS nuclear 
power plant, the modernization of the Budapest metro, and the 
MET gas trading enterprise. Russia also funds far-right and 
paramilitary groups in Hungary.
    In Poland, Russophobia runs strong, given the two 
countries' histories. Today, Russia sponsors around 20 sites 
that self-identify as ``right-wing'' Polish websites that do 
not acknowledge their Russian connections. These outlets work 
with other disruptive media in Poland to source stories that 
support the Russian perspective on the E.U., NATO, migrants, 
and refugees. Russia also disseminates pro-Kremlin propaganda 
through a network of bots and trolls. In a parallel to our own 
experience, these programs seek to spread disinformation while 
making certain ideas appear grassroots-supported.
    Importantly, the Hungarian and Polish publics largely 
disagree with anti-E.U. and anti-democracy messaging. According 
to several studies, nearly 80% of these populations want to 
stay in the E.U. and NATO, despite propaganda attacking these 
institutions. Thus, programs in Eastern Europe that shore up 
democratic institutions are likely to yield positive returns.
    In addition to the propagation of disinformation, Russia 
also sponsors ``Government Organized NGOs,'' or GONGOs in 
Poland, Hungary, Germany, and across Europe. These groups, 
which include advocacy organizations, foundations, and think 
tanks, put out false or misleading analyses, studies, expert 
statements, and reports on topics of interest to the Kremlin 
including on sanctions, Ukraine, migration, E.U. unity, and the 
efficacy of democracy. Frequently sponsored by oligarchs or 
organizations with cultural or religious ties to the Kremlin, 
these GONGOs provide a veneer of legitimacy to misleading data 
and arguments.
    A number of these organizations espouse the neo-Eurasianist 
philosophy of Kremlin advisor Alexander Dugin, who argues that 
democracy is waning globally. We now see Eurasian think tanks 
and NGOs cropping up all over Europe, including via websites 
that actively traffic in false information. Two pro-Kremlin 
Eurasian organizations are particularly active putting out 
information ahead of the upcoming election in Germany. The 
German Center for Eurasian Studies is based in Berlin. The 
other--the European Center for Geopolitical Analysis--is based 
in Warsaw.
    A clear example of how the Kremlin has employed 
disinformation in conjunction with other strategies of 
disruption is its use of false stories about migrants, 
refugees, and Muslims, and the threats they allegedly present 
to national security and public health. In partnership with 
far-right parties in Germany, the Kremlin has weaponized these 
false stories to sow fear and distrust, a wedge that it uses to 
undercut support for Angela Merkel and the CDU.
    As a number of studies have shown, our brains are wired to 
increasingly believe a statement is true the more often we hear 
it. Russia has become expert at using this brain science 
against us, carefully repeating false facts--in this instance, 
about Muslim immigrants.
    At Human Rights First, we call the spread of social media 
targeting minority communities, abetted by disinformation, 
``weaponized speech.'' Next month we'll be issuing a report on 
how to combat it.
    One well-known example of weaponized speech is the 2016 so-
called ``Lisa F. case.'' It is the story of a 13-year old 
Russian-
German girl in Germany who didn't come home one night. Russian 
media spread a false narrative that she was kidnapped and raped 
by Muslim migrants.
    German police debunked this story soon after interviewing 
the alleged victim. Yet Russian media, German far-right 
parties, and Russian political leaders (including Foreign 
Minister Sergei Lavrov), continued to promulgate the false 
story. These voices urged the Russlanddeutsche, ethnic Germans 
who lived for generations in Russia but have now returned to 
Germany, to question whether the German police were covering up 
the alleged crimes of migrants for political reasons.
    As a result, thousands of Russlanddeutsche came out into 
German streets to protest the alleged cover-up and Angela 
Merkel's migration policy. Protests concerning a non-event are 
the stuff of dreams for the Kremlin, as they cause Europeans to 
question their institutions and their values of democracy and 
tolerance.

The German Election: Russian-funded Think Tanks and 
                            German Far-Right Parties

    I conducted my own research into Russian disinformation in 
Germany earlier this year. I was interested in Russia's use of 
think tanks, particularly in the run-up to Germany's September 
election, and their possible link to the far-right and ultra-
nationalist parties Alternative fur Deutschland (AfD) and 
National Democratic Party (NPD).
    I knew that AfD's top candidate on the party slate, 
Alexander Gauland, had traveled to Russia last year and met 
with Alexander Dugin. He also met the head of a Berlin-based 
Russian think tank, Boris Yakunin. AfD has also possibly 
received funding from the Kremlin. I also knew that leaders of 
the neo-Nazi NPD had attended a conference in St. Petersburg at 
the invitation of Russian Deputy Prime Minister Dmitry Rogozin, 
and that NPD had publicly expressed support for Putin and pro-
Russian policies in Germany.
    I tracked the information, statements, and papers put out 
by two Berlin-based, Russian-funded organizations: the Dialogue 
of Civilizations--Yakunin's organization, and the Center for 
Continental Cooperation, now called the German Center for 
Eurasian Studies. I also tracked the statements and policy 
papers of AfD and NPD leaders.
    What I found was that the Russian-funded think tanks and 
German far-right parties were putting out similar messages on a 
number of key topics including the E.U., NATO, the United 
States, Western democracy, and Western media. In general, these 
included attacks on multilateral institutions built on liberal 
democratic values, and indictments of these institutions as 
serving only elites. Specifically, both argued that Western 
democracy had been degraded by multiculturalism, that Western 
media was untrustworthy, that the E.U. and the U.S. were not 
truly free or democratic, and that the U.S. used NATO and other 
tools to subject the world to its hegemony.
    It bears noting that the reach of these campaigns is at 
present quite small. Overall, Germany seems to be prepared to 
fend off interference around its upcoming election. Learning 
from the experiences of the recent U.S. and French elections, 
German leaders have issued public warnings about potential 
Russian cyberattacks and disinformation. The German public has 
therefore been sensitized to the possibility of interference.
    However, success is not a foregone conclusion. About three 
million Russian speakers are being targeted daily with 
disinformation about refugees, same-sex marriage, terrorism, 
and defense issues. Merkel's pro-U.S. stance, and support for 
liberal democratic values, is being used by Russia to exploit 
anti-Americanism and anti-migrant sentiment.
    Germany has also made some missteps in responding to 
disinformation. The Network Enforcement Act it passed in June 
essentially forces social media companies to be the arbiter of 
what constitutes free speech and what violates German law. This 
is a dangerous, short-sighted approach that will inevitably 
force corporations to rely heavily on censorship. The danger of 
this approach can be seen in the fact that Russia saw fit to 
pass an almost identical version of the German law. Ukraine is 
also dangerously responding with a wave of censorship.
    The patterns I have described are by now familiar because 
we have seen them here at home: Russia's disinformation 
campaigns discredit democratic institutions, such as elections 
and independent media, and are accompanied by other strategies 
of interference, such as the use of corruption to infiltrate 
policy-making bodies, the employment of faux experts to echo 
Russia's false claims, and the funding of disruptive agents 
such as extreme political parties and movements.
    We need to act comprehensively against these strategies.
    In January, then-Director of National Intelligence James 
Clapper said that the attacks that occurred around the U.S. 
presidential election were a ``clarion call'' for action 
``against a threat to the very foundation of our democratic 
political system.'' This threat is not confined to the 
immediate run-up to elections. Foreign challenges to our 
democracy are occurring right now, and the U.S. has so far been 
slow to respond.

      How the U.S. Can Combat Russian Disinformation

    So, what do we do?
    First, the U.S. government needs to unify around the 
conviction that Russia uses disinformation in the United 
States. By no means is it the only purveyor of false and 
misleading information here, but it remains a leader in 
pursuing this phenomenon for political ends. The U.S. 
government needs to present a united front to European allies 
in combating this threat, and take a leadership role in 
crafting a thorough and methodical response. The current 
presidential administration has not provided leadership in this 
regard. Congress should thus remind our European allies that 
the U.S. stands strong in its values, and is ready to partner 
with them to fight interference by foreign powers that seek to 
undermine democracy.
    Second, Congress needs to work with other government 
bodies, tech companies, and civil society to gain a more 
comprehensive understanding of how disinformation works and can 
be combatted--and shouldn't rely on short-sighted responses 
similar to the German law and the censorship it incentivizes.
    A thoughtful approach to online disinformation will 
involve: (1) combating the use of bots that robotically amplify 
information and articles based on programmed algorithms, given 
that the U.S. does not protect the free speech of computer 
programs; (2) working with experts in civil society to examine 
laws around online speech to ensure they are informed not only 
by the first amendment, but also by the experiences of affected 
communities; and (3) creating an appeals process whereby 
consumers can contest instances of content removal, and receive 
quick and efficient redress.
    Third, while much of the U.S. government's focus has been 
on messaging and public diplomacy, we also need long-term 
strategies to support democratic institutions and values 
overseas. Last year, Senators Portman and Murphy passed 
legislation that allotted $80 million to the State Department's 
Global Engagement Center for programs to combat disinformation, 
including Russian disinformation. Secretary Tillerson has 
approved the use of $60 million of these funds by the State 
Department to combat disinformation put out by terrorist groups 
such as the Islamic State. This funding is important. At the 
same time, however, we need to recognize that putting out 
better messaging about what democratic institutions can 
accomplish, or responding to specific false messaging 
campaigns, is an incomplete response. Doing so is like treating 
the symptoms of an illness, rather than curing the disease. The 
best advertisement for democracy and human rights is the 
demonstration of strong, well-functioning democratic 
institutions--not just more messages about what these 
institutions could be. We need to show people, not just tell 
them.
    On the part of Congress, this means adequately funding 
democracy and governance programming, including in Eastern 
Europe, a region that we formerly thought had ``graduated'' 
from authoritarianism.
    One strategy that Congress should support is the European 
and Eurasian Democracy and Anti-Corruption Initiative, which 
was introduced by a bipartisan coalition, including some on 
this Commission. This legislation would commit $157 million for 
innovative projects to combat Russian disinformation and 
influence in Europe. Indeed, the Senate's current State and 
Foreign Operations bill contains $120 million for Countering 
Russian Influence.
    With these funds, the Department of State could support 
regional programs to bolster democracy and human rights, 
including in countries where the U.S. does not currently have a 
USAID office, such as Poland and Hungary. The funds could 
support media literacy, like what we believe is helping Germany 
fend off Russian influence this election, and support 
independent media to counter Russian disinformation. These 
programs can increase the critical eye of media consumers. They 
should also support local civic leaders to hold governments 
accountable when they engage in corruption, threaten the rule 
of law, or flout the basic values and requirements of E.U. and 
NATO membership--actions which show the strength of democratic 
principles.

                          Conclusion

    At a time in which democratic values and institutions are 
being undermined and challenged directly by Russia through a 
concerted, multifaceted effort, we need to invest resources in 
these mainstays of sustainable security and prosperity. Now 
more than ever, the United States needs to maintain the 
leadership role we have held since the last World War in 
supporting democratic norms and values. Nations the world over 
are looking to us for guidance in dealing with this new type of 
threat to our institutions and ideals. We need to step up.
    Thank you.

                                 <all>





  
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
